                              NCUA 2010
                     FINANCIAL STATEMENT AUDITS
                                 FOR
                            OPERATING FUND
                      CENTRAL LIQUIDITY FACILITY
              COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
                        SHARE INSURANCE FUND




                 For the year ended December 31, 2010

        Audited Financial Statements            Audit Report Number

Operating Fund                                          OIG-11-02
Central Liquidity Facility                              OIG-11-03
Community Development Revolving Loan Fund               OIG-11-04
Share Insurance Fund                                    OIG-11-05


                             May 12, 2011




                          William A. DeSarno
                          Inspector General
                           EXECUTIVE SUMMARY
PURPOSE AND SCOPE          The National Credit Union Administration (NCUA)
                           Office of Inspector General contracted with the
independent public accounting firm of KPMG LLP to perform the financial
statement audits of the NCUA Operating Fund, the Central Liquidity Facility, the
Community Development Revolving Loan Fund, and the Share Insurance Fund
for the year ended December 31, 2010.

The purpose of the audits is to express an opinion on whether the financial
statements are fairly presented. The independent firm also reviewed the internal
control structure and evaluated compliance with laws and regulations, as part of
their audit.

The audits were performed in accordance with generally accepted auditing
standards and Government Auditing Standards issued by the Comptroller
General of the United States. The Inspector General contracted with KPMG LLP
in June 2009 to perform the financial statement audits mentioned above. The
contract was for 2009, with options for 2010 and 2011. The Inspector General
was the contracting officer for this contract.

AUDIT RESULTS          KPMG LLP expressed unqualified opinions, stating that the
                       financial statements present fairly, in all material respects,
the financial position of the NCUA Operating Fund, the Central Liquidity Facility,
the Community Development Revolving Loan Fund, and the Share Insurance
Fund at December 31, 2010, and the results of operations for the year then
ended.

Although KPMG LLP did not express an overall opinion of the Funds’ compliance
with laws and regulations, their testing of compliance did not disclose any
significant deviations. The financial statement audit for the Temporary Corporate
Credit Union Stabilization Fund will be issued in a separate report in the near
future.
National Credit Union
Administration
Operating Fund
Financial Statements as of and for the Years Ended
December 31, 2010 and 2009, and
Independent Auditors’ Reports
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

TABLE OF CONTENTS

                                                                Page

INDEPENDENT AUDITORS' REPORT ON FINANCIAL STATEMENTS             1

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
 DECEMBER 31, 2010 AND 2009

 Balance Sheets                                                  2

 Statements of Revenues, Expenses and Changes in Fund Balance    3

 Statements of Cash Flows                                        4

 Notes to Financial Statements                                  5-16

INDEPENDENT AUDITORS' REPORT ON INTERNAL CONTROL
 OVER FINANCIAL REPORTING

INDEPENDENT AUDITORS' REPORT ON COMPLIANCE AND OTHER MATTERS
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




                         Independent Auditors’ Report on Financial Statements


Inspector General, Nation Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Administration Operating
Fund (the Fund) as of December 31, 2010 and 2009 and the related statements of revenues, expenses, and
changes in fund balance, and cash flows (hereinafter referred to as “financial statements”) for the years
then ended. These financial statements are the responsibility of the Fund’s management. Our responsibility
is to express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the Fund’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the National Credit Union Administration Operating Fund as of December 31, 2010
and 2009 and its statement of operations, changes in fund balance, and statements of cash flows for the
years then ended in conformity with U.S. generally accepted accounting principles.

In accordance with Government Auditing Standards, we have also issued our reports dated February 15,
2011, on our consideration of the Fund’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and grant agreements and other matters.
The purpose of those reports is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. Those reports are an integral part of an audit performed
in accordance with Government Auditing Standards and should be read in conjunction with this report in
assessing the results of our audits.




February 15, 2011




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

BALANCE SHEETS
AS OF DECEMBER 31, 2010 AND 2009
(Dollars in thousands)

                                                                        2010       2009
ASSETS

CASH AND CASH EQUIVALENTS (Note 4)                                      $32,645   $24,321

DUE FROM NATIONAL CREDIT UNION SHARE INSURANCE
 FUND (Note 8)                                                            2,857     2,258

EMPLOYEE ADVANCES                                                           50       166

OTHER ACCOUNTS RECEIVABLE (Note 8)                                         349       274

PREPAID EXPENSES AND OTHER ASSETS                                         1,371     1,010

ASSETS HELD FOR SALE (Note 7)                                              696       495

FIXED ASSETS — Net of accumulated depreciation of $23,330 and
  $22,282 as of December 31, 2010 and 2009, respectively (Note 5)        31,673    30,203

INTANGIBLE ASSETS — Net of accumulated amortization of $6,441 and
  $4,079 as of December 31, 2010 and 2009, respectively (Note 6)          5,945     7,300

TOTAL                                                                   $75,586   $66,027


LIABILITIES AND FUND BALANCE

LIABILITIES:
 Accounts payable                                                        $5,043    $3,036
 Obligations under capital leases (Note 9)                                   24        41
 Accrued wages and benefits                                               8,581     7,109
 Accrued annual leave                                                    11,401     9,922
 Accrued employee travel                                                    532       179
 Notes payable to National Credit Union Share Insurance Fund (Note 8)    17,097    18,438

       Total liabilities                                                 42,678    38,725

COMMITMENTS AND CONTINGENCIES (Notes 8, 13 & 14)

FUND BALANCE ( Note 12)                                                  32,908    27,302


TOTAL                                                                   $75,586   $66,027

See accompanying notes to financial statements.



                                                        -2-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

STATEMENTS OF REVENUES, EXPENSES, AND CHANGES IN FUND BALANCE
FOR THE YEARS ENDED DECEMBER 31, 2010 AND 2009
(Dollars in thousands)

                                                          2010       2009

REVENUES:
 Operating fees                                         $ 86,754   $ 81,679
 Interest                                                     63         41
 Other                                                     1,234        544

      Total revenues                                      88,051     82,264

EXPENSES, NET (Note 8):
 Employee wages and benefits                              59,379     58,469
 Travel                                                    9,163      8,185
 Rent, communications, and utilities                       1,773      1,935
 Contracted services                                       6,194      4,119
 Other                                                     5,936      4,788

      Total expenses                                      82,445     77,496

EXCESS OF REVENUES OVER EXPENSES                           5,606      4,768

FUND BALANCE—Beginning of year                            27,302     22,534

FUND BALANCE—End of year                                $ 32,908   $ 27,302

See accompanying notes to financial statements.




                                                  -3-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2010 AND 2009
(Dollars in thousands)

                                                                                                               2010              2009
CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of revenues over expenses                                                                          $ 5,606           $ 4,768
 Adjustments to reconcile excess of revenues over expenses to net cash provided by operating activities:
  Depreciation and amortization                                                                                 5,154             2,711
  Provision for loss on disposal of employee residences held for sale                                             244               330
  Loss on fixed asset retirements                                                                                 380                 -
  (Increase) decrease in assets:
    Due from National Credit Union Share Insurance Fund                                                          (599)           (2,089)
    Employee advances                                                                                             116               (75)
    Other accounts receivable                                                                                     (75)                9
    Prepaid expenses and other assets                                                                            (361)            2,668
  (Decrease) increase in liabilities:
    Accounts payable                                                                                            2,007            (1,027)
    Accrued wages and benefits                                                                                  1,472             2,991
    Accrued annual leave                                                                                        1,479             1,015
    Accrued employee travel                                                                                       353               173

      Net cash provided by operating activities                                                                15,776            11,474

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchases of fixed assets                                                                                     (5,649)           (6,838)
 Purchases of employee residences held for sale                                                                (1,386)           (1,258)
 Proceeds from sale of employee residences held for sale                                                          941               951
      Net cash used in investing activities                                                                    (6,094)           (7,145)
                                                                                                                         \
CASH FLOWS FROM FINANCING ACTIVITIES:
 Repayments of notes payable to National Credit Union Share Insurance Fund                                     (1,341)           (1,341)
 Principal payments under capital lease obligations                                                               (17)             (259)

      Net cash used in financing activities                                                                    (1,358)           (1,600)

NET INCREASE IN CASH AND CASH EQUIVALENTS                                                                       8,324             2,729
CASH AND CASH EQUIVALENTS—Beginning of year                                                                    24,321            21,592

CASH AND CASH EQUIVALENTS—End of year                                                                      $ 32,645          $ 24,321

CASH PAYMENTS FOR INTEREST                                                                                 $     397         $     509

See accompanying notes to financial statements.




                                                            -4-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2010 AND 2009

1.      ORGANIZATION AND PURPOSE

The National Credit Union Administration Operating Fund (the “Fund”) was created by the
Federal Credit Union Act of 1934. The Fund was established as a revolving fund in the United
States Treasury under the management of the National Credit Union Administration (NCUA)
Board for the purpose of providing administration and service to the Federal Credit Union
System.

A significant majority of the Fund’s revenue is comprised of operating fees paid by Federal
credit unions. Each Federal credit union is required to pay this fee based on its prior year asset
balances and rates set by the NCUA Board.

2.      SIGNIFICANT ACCOUNTING POLICIES

Basis of Presentation – The Fund has historically prepared its financial statements in
accordance with accounting principles generally accepted in the United States of America
(GAAP), based on standards issued by the Financial Accounting Standards Board (FASB), the
private sector standards setting body. The Federal Accounting Standards Advisory Board
(FASAB) is the standards setting body for the establishment of GAAP with respect to the
financial statements of Federal Government entities. FASAB has indicated that financial
statements prepared based upon standards promulgated by FASB may also be regarded as in
accordance with GAAP for Federal entities that have issued financial statements based upon
FASB standards in the past.

Basis of Accounting – The Fund maintains its accounting records in accordance with the accrual
basis of accounting. As such, the Fund recognizes income when earned and expenses when
incurred. In addition, the Fund records investment transactions when they are executed and
recognizes interest on investments when it is earned.

Related Parties – The Fund exists within NCUA and is one of five funds managed by the
NCUA Board. The other funds managed by the Board, deemed related parties, are:

     a) The National Credit Union Share Insurance Fund (NCUSIF)
     b) The National Credit Union Administration Temporary Corporate Credit Union
        Stabilization Fund (TCCUSF)
     c) The National Credit Union Administration Central Liquidity Facility (CLF)
     d) The National Credit Union Administration Community Development Revolving Loan
        Fund (CDRLF).




                                                -5-
The Fund supports related parties by providing office space, information technology services,
and supplies, as well as paying employees’ salaries and benefits. Certain types of support are
reimbursed to the Fund by NCUSIF and CLF based on allocation formulas, as described in Note
8.

Cash Equivalents – Cash equivalents are highly liquid investments with original maturities of
three months or less. The Federal Credit Union Act permits the Fund to invest in United States
Government securities or securities with both principal and interest guaranteed by the United
States Government. All investments in 2010 and 2009 were cash equivalents and are stated at
cost, which approximates fair value.

Fixed and Intangible Assets – Buildings, furniture, equipment, computer software, and
leasehold improvements are recorded at cost. Computer software includes the cost of labor
incurred by both external and internal programmers, and other personnel in the development of
the software. Capital leases are recorded at the present value of the future minimum lease
payments. Depreciation and amortization are computed by the straight-line method over the
estimated useful lives of buildings, furniture, equipment, and computer software, and the shorter
of either the estimated useful life or lease term for leasehold improvements and capital leases.
Estimated useful lives are 40 years for the building and three to ten years for the furniture,
equipment, computer software, and leasehold improvements.

Long-lived Assets/Impairments – Fixed and intangible assets, subject to amortization, are
reviewed for impairment whenever events or changes in circumstances indicate that the carrying
amount of an asset may not be recoverable. If the carrying value of the long-lived asset or asset
group is not recoverable, an impairment is recognized to the extent that the carrying value
exceeds its fair value. Fair value is determined through various valuation techniques, including
discounted cash flow models, quoted market values, and third party independent appraisals, as
considered necessary.

For impairments, the Fund’s policy is to identify assets that are no longer in service, obsolete, or
need to be written down, and perform an impairment analysis based on FASB Accounting
Standards Codification (ASC) 360-10-35, Property, Plant, and Equipment, requirements.
Subsequent adjustment to individual asset values are made to correspond with any identified
changes in useful lives.

Assets Held for Sale – The Fund holds certain real estate held for sale. Such held for sale assets
are ready for sale in their present condition. Real estate held for sale is recorded at the lower of
cost or fair value less cost to sell. If an asset’s fair value less cost to sell—based on a review of
available financial information including but not limited to appraisals, markets analyses, etc.—is
less than its carrying amount, the carrying value of the asset is adjusted.

Gains on disposition of real estate are recognized upon sale of the underlying asset. The Fund
evaluates each real estate transaction to determine if it qualifies for gain recognition under the
full accrual method. If the transaction does not meet the criteria for the full accrual method, the
appropriate deferral method is used.




                                                -6-
Accounts Receivable – Receivables include employee travel advances, and amounts due from
the NCUSIF and CLF. Amounts are stated at face value, as there have been no historical losses
and there are no anticipated losses.

Accounts Payable– The Fund incurs administrative expenses and liabilities for programs
pertaining to related parties that are controlled by the NCUA Board. Accruals are made as
expenses are incurred.

Accrued Benefits – The Fund incurs expenses for retirement plans, employment taxes, workers
compensation, transportation subsidies, and other benefits mandated by law. Corresponding
liabilities recorded contain both short-term and long-term liabilities, including liabilities under
the Federal Employees’ Compensation Act (FECA). This act provides income and medical cost
protection to covered Federal civilian employees injured on the job, employees who have
incurred a work-related occupational disease, and beneficiaries of employees whose death is
attributable to a job-related injury or occupational disease.

Operating Fees – Each federally chartered credit union is assessed an annual fee based on their
assets as of the preceding 31st day of December. The fee is designed to cover the costs of
providing administration and service to the Federal Credit Union System. The Fund recognizes
this operating fee revenue ratably over the calendar year.

Revenue Recognition – Interest revenue and other revenue relating to Freedom of Information
Act (FOIA) fees, sales of publications, parking income, and rental income is recognized when
earned.

Income Taxes – The Fund is exempt from Federal income taxes under Section 501(c)(1) of the
Internal Revenue Code.

Leases – Operating leases are entered into for the acquisition of office space and equipment as
part of administering NCUA’s program. The cost of operating leases is recognized on the
straight-line method over the life of the lease and includes, if applicable, any reductions resulting
from incentives such as rent holidays. The same method is used to recognize income from
operating leases. Certain office space for which NCUA is a lessee is subject to escalations in
rent, as described in Note 9.

Fair Value of Financial Instruments – The following method and assumption was used in
estimating the fair value disclosures for financial instruments:

Cash and cash equivalents, receivables from related parties, employee advances, other accounts
receivable, accounts and notes payable to NCUSIF, and other accounts payable are recorded at
book values, which approximate their respective fair values.

Use of Estimates – The preparation of financial statements in conformity with GAAP requires
management to make estimates and assumptions that affect the reported amounts of assets and
liabilities, disclosure of contingent liabilities at the date of the financial statements, and the
reported amounts of revenues and expenses incurred during the reporting period. Significant



                                                -7-
estimates include the determination of the FECA liability, certain intangible asset values, and if
there is any determination of a long-lived asset impairment, the related measurement of the
impairment charge.

Reclassifications – Certain amounts in the financial statements have been reclassified to
conform to the current year presentation.

Advertising Costs – Per FASB ASC 720-35-50, Other Expenses - Advertising Costs consist
primarily of radio and Internet advertisements. Advertising costs are expensed as incurred. The
Fund enters into certain contracts for the purpose of advertising. In 2010 and 2009, advertising
expenses amounted to approximately $1,434,000 and $0, respectively.

3.      NEWLY IMPLEMENTED ACCOUNTING STANDARDS

In January 2010, FASB issued Accounting Standards Update (ASU) 2010-06, Fair Value
Measurements and Disclosure (Topic 820): Improving Disclosures about Fair Value
Measurements related to improving disclosures about fair value measurements. The update
requires reporting entities to make new disclosures about recurring or nonrecurring fair value
measurements, including significant transfers into and out of level 1 and level 2 fair value
measurements, and information on purchases, sales, issuances, and settlements on a gross basis
in the reconciliation of level 3 fair value measurements. The accounting standard update is
effective for reporting periods beginning after December 15, 2009, except for level 3
reconciliation disclosures, which are effective for periods beginning after December 15, 2010.
Adoption of the accounting standard update as it relates to level 1 and level 2 fair value
disclosures impacted the Fund’s financial statements. Level 3 fair value adjustments occur for
assets held for sale, which represents homes from relocated employees. The Fund does not
expect the adoption of the accounting standard update related to the level 3 reconciliation
disclosures to have a material impact on its financial statements.

4.      CASH AND CASH EQUIVALENTS

The Fund’s cash and cash equivalents as of December 31, 2010 and 2009 are as follows (in
thousands):

                                                                           2010            2009

     Deposit with U.S. Treasury                                        $      104      $      513
     U.S. Treasury Overnight Investments                                   32,541          23,808

     Total                                                             $ 32,645        $ 24,321

As a revolving fund within the U.S. Treasury, the Operating Fund (OF) maintains a Fund
Balance with Treasury (FBWT) and does not hold cash outside of Treasury.




                                                -8-
5.        FIXED ASSETS

Fixed assets, including furniture and equipment, are comprised of the following as of December
31, 2010 and 2009 (in thousands):

                                                                            2010                 2009

     Office building and land                                        $      45,039        $     43,595
     Furniture and equipment                                                 8,996               8,698
     Equipment under capital leases                                            141                 152

      Total                                                                 54,176              52,445

     Less accumulated depreciation                                         (23,330)            (22,282)
     Assets under construction                                                 827                  40

     Fixed assets — net                                              $      31,673        $     30,203

Depreciation expense for the years ended December 31, 2010 and 2009 totaled $2,076,000 and
$2,051,000, respectively.

Assets under construction primarily represent costs to improvements to the King Street NCUA
Headquarters office space.

6.        INTANGIBLE ASSETS

Intangible assets are comprised of the following as of December 31, 2010 and 2009 (in
thousands):
                                                                     2010                 2009

      Internal-Use software                                      $       10,276       $        6,508
      Less accumulated amortization                                      (6,441)              (4,079)

      Total                                                               3,835               2,429

      Internal-Use software-in development                                2,110               4,871

      Intangible assets — net                                    $        5,945       $       7,300



Internal-use software is computer software that is either acquired externally or developed
internally. Amortization expense for the years ended December 31, 2010 and 2009 totaled
$3,078,000 and $660,000, respectively.




                                              -9-
Internal-use software that is in development represents costs incurred from the customization of
software purchased from external vendors for internal use. This includes the Federal financial
accounting system that was partially implemented in January 2010, the Management Allocation
Resource System examination time budgeting system to be implemented in the near future, and
the online 5300 system to be implemented during 2011.

7.     ASSETS HELD FOR SALE

Real estate available for sale purchased by the Fund is from employees enrolled in the agency’s
home purchase program who are unable to sell their homes in a specified time period. It is the
agency’s intent to dispose of these properties as quickly as possible. Sales of homes are
generally expected to occur within one year, pending market forces. Currently, the Fund owns
three homes. Ongoing costs to maintain properties are expensed as incurred. The balance of real
estate available for sale as of December 31, 2010 and 2009 was $696,000 and $495,000,
respectively.

8.     RELATED PARTY TRANSACTIONS

(a) Transactions with NCUSIF

Certain administrative services are provided by the Fund to NCUSIF. The Fund charges
NCUSIF for these services based upon an annual allocation factor approved by the NCUA Board
and derived from a study of actual usage. The allocation factor was 100% of the expenses of the
Office of Corporate Credit Unions to the extent that it exceeds the actual operating fees paid by
Federal corporate credit unions, plus 57.2% of all other expenses to NCUSIF for 2010 and 53.8%
for 2009. The cost of the services allocated to NCUSIF, which totaled approximately
$113,584,000 and $90,244,000 for 2010 and 2009, respectively, is reflected as a reduction of the
corresponding expenses in the accompanying financial statements. These transactions are settled
monthly. As of December 31, 2010 and 2009, amounts due from NCUSIF, under this allocation
method, totaled $2,857,000 and $2,258,000, respectively.

In 1992, the Fund entered into a commitment to borrow up to $41,975,000 in a 30-year secured
term note with NCUSIF. The monies were drawn as needed to fund the costs of constructing a
building in 1993. Interest costs incurred were $397,000 and $509,000 for 2010 and 2009,
respectively. The notes payable balances as of December 31, 2010 and 2009 were approximately
$17,097,000 and $18,438,000, respectively. The current portion of the long term debt is
$1,341,000 for both December 31, 2010 and 2009.

The variable rate on the note is equal to NCUSIF’s prior-month yield on investments. The
average interest rates during 2010 and 2009 were 2.24% and 2.56%, respectively. The interest
rates as of December 31, 2010 and 2009 were 2.14% and 2.06 %, respectively.




                                              - 10 -
The secured term note requires principal repayments as of December 31, 2010 as follows (in
thousands):

      Years Ending                                                                    Secured
      December 31                                                                    Term Note
      2011                                                                           $        1,341
      2012                                                                                    1,341
      2013                                                                                    1,341
      2014                                                                                    1,341
      2015                                                                                    1,341
      Thereafter                                                                             10,392

      Total                                                                          $       17,097

(b) Transactions with CLF

Certain administrative services are provided by the Fund to CLF. The Fund pays CLF’s
employee salaries and related benefits, as well as CLF’s portion of building and operating costs.
Reimbursements of these expenses are determined by applying a ratio of CLF full-time
equivalent employees to the NCUA total, with settlement and payment occurring quarterly. All
other CLF reimbursement expenses are paid annually. The costs of the services provided to CLF
were approximately $483,000 and $334,000 for December 31, 2010 and 2009, respectively, and
are reflected as a reduction of the corresponding expenses in the accompanying financial
statements.

Other accounts receivable include approximately $183,000 and $145,000 of amounts due from
the CLF as of December 31, 2010 and 2009, respectively.

(c) Support of CDRLF

The Fund supports the administration of programs under CDRLF by paying related personnel
and other associated costs. The estimation of administrative costs includes salaries, employee
benefits, travel, training, telephone, supplies, printing, and postage.

For the years ending December 31, 2010 and 2009, administrative support to CDRLF is
estimated at (in thousands):

                                                                            2010             2009

    Employee                                                            $      387       $       242
    Other                                                                       16                12

    Total                                                               $      403       $       254




                                              - 11 -
(d) Federal Financial Institutions Examination Council (FFIEC)

NCUA is one of the five Federal agencies that fund FFIEC operations. Under FFIEC’s charter,
NCUA’s Chairman is appointed as a Member. FFIEC was established on March 10, 1979 as a
formal inter-agency body empowered to prescribe uniform principles, standards, and report
forms for the Federal examination of financial institutions by NCUA, the Board of Governors of
the Federal Reserve System, the Federal Deposit Insurance Corporation, the Office of the
Comptroller of the Currency, and the Office of Thrift Supervision. FFIEC was also established
to make recommendations to promote uniformity in the supervision of financial institutions.
Additionally, FFIEC provides training to staff employed by Member agencies; the Member
agencies are charged for these trainings based on use. For the years ended December 31, 2010
and December 31, 2009, FFIEC assessments totaled $873,000 and $760,000, respectively.
FFIEC’s 2011 budgeted assessments to NCUA total $852,000.

(e) Support of TCCUSF

The Fund supports the administration of programs under TCCUSF by paying related personnel
and other associated costs. The estimation of administrative costs includes salaries, employee
benefits, travel, training, telephone, supplies, printing, and postage.

For the years ending December 31, 2010 and 2009, administrative support to TCCUSF is
estimated at $5,858,000 and $114,000 respectively.

(f) Real Estate Available for Sale

The Fund purchases homes from employees enrolled in the agency’s home purchase program
who are unable to sell their homes in a specified time period, as mentioned in Note 7.

9.     LEASE COMMITMENTS

Description of Leasing Agreements – The Fund has entered into a number of lease agreements
with vendors for the rental of office space and office equipment, which includes laptops, printers,
monitors, and copiers.

Operating Leases – The Fund leases certain of NCUA’s office space under lease agreements
that run through 2015. Office rental charges amounted to approximately $566,000 and
$1,089,000, of which approximately $324,000 and $586,000 were reimbursed by NCUSIF for
2010 and 2009, respectively. In addition, the Fund leases laptop computers and other office
equipment under operating leases with lease terms that run through 2012.

Capital Leases – The Fund leases copier equipment under lease agreements that run through
2012.




                                               - 12 -
The future minimum lease payments to be paid over the next five years as of December 31,
2010, before reimbursements, are as follows (in thousands):

      Years Ending                                                    Operating           Capital
      December 31                                                      Leases             Leases

      2011                                                            $    1,921      $         18
      2012                                                                 1,348                 6
      2013                                                                   805                 -
      2014                                                                   448                 -
      2015                                                                   379                 -
      Thereafter                                                               -                 -

      Total                                                           $    4,901      $         24

Based on the allocation factor approved by the NCUA Board for 2010, NCUSIF is expected to
reimburse the Fund for approximately 57.2% of the future operating lease payments.

As a lessor, the Fund holds operating lease agreements with three tenants, each of whom rents a
portion of the Fund’s building for retail space. The leases carry five year terms with escalating
rent payments. The last of these leases is set to expire in 2015.

The future minimum lease payments to be received from these non-cancelable operating leases at
December 31, 2010 are as follows (amounts in thousands):

Years Ending
Dece mbe r 31                                                                  Rent Payments

2011                                                                           $             549
2012                                                                                         541
2013                                                                                         553
2014                                                                                         495
2015                                                                                          72
Thereafter                                                                                     -

Total                                                                           $          2,210

10.      RETIREMENT PLANS

Eligible employees of the Fund are covered by Federal Government retirement plans—either the
Civil Service Retirement System (CSRS) or the Federal Employees Retirement System (FERS).
Both plans are defined benefit retirement plans covering all of the employees of the Fund. FERS
is comprised of a Social Security Benefits Plan, a Basic Benefits Plan, and a Savings Plan.
Contributions to the plans are based on a percentage of an employee’s gross pay. Under the
Savings Plan, employees may also elect additional contributions up to $16,500 in 2010, and the


                                              - 13 -
Fund will match up to 5% of the employee’s gross pay. In 2010 and 2009, the Fund’s
contributions to the plans were approximately $15,775,000 and $14,021,000, respectively, of
which approximately $9,024,000 and $7,543,000, respectively, was allocated to NCUSIF.

These defined benefit plans are administered by the U.S. Office of Personnel Management
(OPM), which determines the required employer contribution level. The Fund does not account
for the assets pertaining to the above plans, and does not have actuarial data with respect to
accumulated plan benefits or the unfunded liability relative to eligible employees. These
amounts are reported by OPM and are not allocated to individual employers.

11.       FAIR VALUE MEASUREMENTS

The following disclosures of the estimated fair values are made in accordance with the
requirements of FASB ASC 825, Financial Instruments and FASB ASC 820 Fair Value
Measurements and Disclosures. Fair value is the amount that would be received to sell an asset,
or paid to transfer a liability in an orderly transaction between market participants at the
measurement date.

The accounting standards establish a fair value hierarchy that prioritizes the inputs to valuation
techniques used to measure fair value. The hierarchy gives the highest priority to unadjusted
quoted prices in active markets for identical assets or liabilities (level 1 measurements) and the
lowest priority to measurements involving significant unobservable inputs (level 3
measurements). The three levels of the fair value hierarchy are as follows:

      •   Level 1 inputs are quoted prices (unadjusted) in active markets for identical assets or
          liabilities that the Fund has the ability to access at the measurement date
      •   Level 2 inputs are inputs other than quoted prices included within level 1 that are
          observable for the asset or liability, either directly or indirectly
      •   Level 3 inputs are unobservable inputs for the asset or liability.

The level in the fair value hierarchy within which a fair value measurement in its entirety falls is
based on the lowest level input that is significant to the fair value measurement in its entirety.

The Fund has no financial instruments that are subject to fair value measurement on a recurring
basis.

The following table presents the carrying amounts and established fair values (in thousands) of
the Fund’s assets held for sale as of December 31, 2010 and 2009. The impairment charges are
recorded within the excess of revenues over expenses and represent non-recurring fair value
measures.
                                         2010                                       2009
                        Amortized Aggregate Total Impairment       Amortized Aggregate Total Impairment
                        Cost Basis Fair Value Charges for 2010     Cost Basis Fair Value Charges for 2009

Assets held for sale     $     696   $    696 $            164      $    495   $     495   $           55




                                                  - 14 -
Assets held for sale – Assets held for sale represents residences from relocating employees, and
is presented at fair value. The fair value measurement recorded during the period includes
pending purchase contracts, the lower of list prices or appraisals if less than six months old (if no
pending purchase contracts exist), or recent market analyses (if no recent list prices or appraisals
are readily available). Additionally, the fair value incorporates an estimated 10 percent reduction
in the fair value to recognize realtor, closing, and other costs. The Fund believes that these
measurements fairly reflect the most current valuation of the assets. Accordingly, the Fund uses
level 3 inputs to measure the fair value of these investments. Unrealized losses relating to these
assets are reported in the income statement.

The carrying values approximate the fair values of certain financial instruments as of December
31, 2010 and 2009 were as follows (in thousands):

                                                     2010                         2009
                                            Carrying Estimated           Carrying Estimated
                                            Amount Fair Value            Amount Fair Value
       Cash and cash equivalents             $32,645      $32,645         $24,321      $24,321
       Due from NCUSIF                         2,857        2,857           2,258        2,258
       Employee advances                          50           50             166          166
       Obligation under capital lease             24           24              41           41
       Notes payable to NCUSIF                17,097       17,097          18,438       18,438

Cash and Cash Equivalents – The carrying amounts for cash and cash equivalents financial
instruments approximates fair value. Cash equivalents are U.S. Treasury overnight investments.

Due from NCUSIF – The carrying amounts for the due from NCUSIF financial instruments
approximates fair value.

Employee Advances – The carrying amounts for receivables from employees financial
instruments approximate fair value.

Obligation under Capital Lease – The carrying amounts for the remaining obligations owed on
capital leases financial instruments approximate fair value.

Notes Payable to NCUSIF – The carrying amounts for notes payable to NCUSIF financial
instruments approximates fair value due to its variable rate nature.

12.    FUND BALANCE AND RETAINED EARNINGS APPROPRIATION

From 2006 to 2009, the Fund established an appropriation of the fund balance in an effort to
more transparently disclose and communicate to stakeholders earnings which were necessary for
major projects that could not be accrued or would not warrant inclusion in the annual operating
expense budget. The initial appropriation of $1,000,000 was for repairs and maintenance on the
King Street NCUA Headquarters office space. The appropriation was no longer considered
necessary in 2010, as building projects have become more frequently budgeted on an annual
basis.


                                               - 15 -
At December 31, 2010 and 2009, retained earnings balances are as follows (in thousands):

                                                                           2010        2009

      Fund balance (excluding retained earnings appropriation)           $ 32,908     $ 26,302
      Retained earnings appropriation                                           -        1,000

      Total fund balance                                                 $ 32,908     $ 27,302


13.      CONTINGENCIES

The Fund is currently a party to a number of disputes that involve or may involve litigation. In
the opinion of Fund management, the ultimate liability with respect to other disputes, if any, will
not be material to the Fund’s financial position.

14.      COLLECTIVE BARGAINING AGREEMENT

NCUA has a collective bargaining agreement (CBA) with the National Treasury Employees
Union (NTEU) that became effective on January 11, 2008. NTEU is the exclusive representative
of approximately 80% of NCUA employees. This agreement will remain in effect for a period of
three years from its effective date and will be automatically renewable for additional one year
periods until otherwise re-negotiated by the parties. NTEU has requested to renegotiate the CBA
and the negotiations are ongoing.

15.      SUBSEQUENT EVENTS

Subsequent events have been evaluated through February 15, 2011, which is the date the
financial statements were available to be issued, and management determined that there are no
other items to disclose.




                                                     - 16 -
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, Nation Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the balance sheets of the National Credit Union Administration Operating Fund (the
Fund) as of December 31, 2010 and 2009 and the related statements of revenues, expenses, and changes in
fund balance, and cash flows (hereinafter referred to as “financial statements”) for the years then ended,
and have issued our report thereon dated February 15, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the Fund is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2010 audit, we considered the Fund’s internal control over
financial reporting by obtaining an understanding of the Fund’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of the Fund’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of the
Fund’s internal control over financial reporting. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2010 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above. However, we identified a certain deficiency in
internal control over financial reporting described in Exhibit I that we consider to be a significant
deficiency in internal control over financial reporting. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance.



                                  KPMG LLP is a Delaware limited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative
                                  (“KPMG International”), a Swiss entity.
National Credit Union Administration Operating Fund
February 15, 2011
Page 2 of 2




The Fund’s response to the findings identified in our audit are presented in Exhibit II. We did not audit the
Fund’s response and, accordingly, we express no opinion on it.

Exhibit III presents the status of the prior year material weakness.

This report is intended solely for the information and use of the addressees, the Fund’s management, OMB,
the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should not
be used by anyone other than these specified parties.




February 15, 2011
                                                                                                    Exhibit I
                          NATIONAL CREDIT UNION ADMINISTRATION –
                                     OPERATING FUND
                                       SIGNIFICANT DEFICIENCY



Introduction

This exhibit describes the significant deficiency noted during our audit as of and for the year ended
December 31, 2010, and our recommendations thereon. The National Credit Union Administration
Operating Fund (the Fund) management’s response to this finding is presented in Exhibit II.

Improvements Needed in Financial Accounting and Reporting Process

The Fund needs improvement in reporting the activity of property, plant and equipment and intangible
assets in the financial statements, enhancing the quality of certain supporting documentation thereby
increasing the efficiency of the financial statements close process, and better segregating the preparation
and review of manual journal entries. Specifically, we noted the following.

  i.       Difficulties encountered by management in providing timely support for key reported items in
           the financial statements. Management was unable to provide documentation related to PP&E,
           including a roll-forward for the PP&E balances, reconciliations of the PP&E module/subledger
           to the general ledger, and detailed account listings to support the amounts and disclosures in the
           financial statements in a timely manner.

  ii.      A lack of efficiency in the operation of management’s recordkeeping and financial close
           procedures. Specifically, we observed that time was diverted from the financial close and
           review processes to research and analyze certain transactions from earlier in the year. Upon
           inspection, the documentation for some transactions, (for example non-routine transaction
           related to prior post-closing adjustments, etc.) was insufficiently detailed to be understood
           without special investigation and explanation.

  iii.     A lack of documentation of control activities. The Fund did not have procedures in place for the
           first three quarters of 2010 that required the review and approval of manual journal entries and
           the related supporting documentation. Specifically, the sample journal entries that we tested did
           not all have evidence that the journal entries were reviewed and approved by someone other
           than the preparer. During the fourth quarter of 2010, the Fund implemented a manual procedure
           in which journal entries were reviewed and approved by someone other than the preparer. The
           sample of journal entries we reviewed in the fourth quarter contained evidence of review and
           approval by someone other than the preparer. However, the Fund did not have a procedure in
           place to confirm journal entries were made as approved.

We believe that the incomplete documentation for certain non-routine activity and lack of familiarity with
the new general ledger system contributed, in part, to management’s inability to efficiently prepare the
financial statements and relating supporting documentation in a timeframe that would be expected to
consistently enable robust review.

The FMFIA requires that agencies establish internal controls according to standards prescribed by the
Comptroller General and specified in the GAO Standards for Internal Control in the Federal Government
(GAO Standards). These standards define internal control as an integral component of an organization’s
                                                                                                    Exhibit I
                          NATIONAL CREDIT UNION ADMINISTRATION –
                                     OPERATING FUND
                                       SIGNIFICANT DEFICIENCY


management that provides reasonable assurance that the following objectives are being achieved:
effectiveness and efficiency of operations, reliability of financial reporting, and compliance with applicable
laws and regulations. GAO Standards state that internal controls should generally be designed to assure that
on-going monitoring occurs in the course of normal operations. Management is responsible for developing
control activities, which are the policies, procedures, techniques, and mechanisms that enforce
management’s directives and help ensure actions address risks. The activities include reviews by
management at the functional or activity level, proper execution of transactions and events, accurate and
timely recording of transactions and events, and appropriate documentation of transactions and internal
control.

Recommendations

We recommend that the NCUA strengthen its accounting policies, procedures and controls as follows:

•   Regularly reassess staff workload and key financial reporting tasks to especially ensure qualified
    personnel are available to efficiently and effectively perform the year-end closing of the books and
    preparation of financial statements.

•   Expand the level of documentation in the books and records in relation to non-routine activities and
    transactions so that such information is readily available for inspection. Such documentation should be
    prepared on a real-time basis so as not to unduly interfere with the annual closing activities and
    otherwise limit the time available for a robust review process.

•   In lieu of wholly-reliance on manual controls, consider the cost/benefit of potential automated
    procedures and systems-based controls to enforce segregation of duties and enable documented
    accountability for supervisory reviews for manual journal entries.
                                                                          Exhibit III
                     NATIONAL CREDIT UNION ADMINISTRATION –
                                OPERATING FUND
                            STATUS OF PRIOR YEAR FINDINGS


                  2009 Finding                    Deficiency Type     2010 Status

                                                                        Partially
Improvements Needed in Financial Accounting and                       Remediated –
                                                  Material Weakness
Reporting Process                                                      Significant
                                                                       Deficiency
                             KPMG LLP
                             2001 M Street, NW
                             Washington, DC 20036-3389




                    Independent Auditors’ Report on Compliance and Other Matters


Inspector General, Nation Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the balance sheets of the National Credit Union Administration Operating Fund (the
Fund) as of December 31, 2010 and 2009, and the related statements of revenues, expenses, and changes in
fund balance, and statements of cash flows (hereinafter referred to as “financial statements”) for the years
then ended, and have issued our report thereon dated February 15, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the Fund is responsible for complying with laws, regulations, contracts, and grant
agreements applicable to the Fund. As part of obtaining reasonable assurance about whether the Fund’s
financial statements are free of material misstatement, we performed tests of the Fund’s compliance with
certain provisions of laws, regulations, contracts, and grant agreements, noncompliance with which could
have a direct and material effect on the determination of the financial statement amounts, and certain
provisions of other laws and regulations specified in OMB Bulletin No. 07-04. We limited our tests of
compliance to the provisions described in the preceding sentence, and we did not test compliance with all
laws, regulations, contracts, and grant agreements applicable to the Fund. However, providing an opinion
on compliance with those provisions was not an objective of our audit, and accordingly, we do not express
such an opinion.

The results of our other tests of compliance discussed in the third paragraph of this report disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the addresses, the Fund’s management, OMB,
the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should
not be used by anyone other than these specified parties.




February 15, 2011




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
National Credit Union
Administration Central
Liquidity Facility
Financial Statements as of and for the Years Ended
December 31, 2010 and 2009, and
Independent Auditors’ Reports
              NATIONAL CREDIT UNION ADMINISTRATION
                   CENTRAL LIQUIDITY FACILITY
               As of and For the Years Ended December 31, 2010 and 2009




TABLE OF CONTENTS


                                                                          Page



 INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS                         3

 FINANCIAL STATEMENTS AS OF DECEMBER 31, 2010 AND 2009:

     Balance Sheets                                                           4

     Statements of Operations                                                 5

     Statements of Members’ Equity                                            6

     Statements of Cash Flows                                                 7

     Notes to Financial Statements                                          8 - 17

 INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
     FINANCIAL REPORTING

 INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND OTHER MATTERS




                                         -2-
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




                         Independent Auditors’ Report on Financial Statements


Inspector General, Nation Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Administration Central
Liquidity Facility (CLF) as of December 31, 2010 and 2009 and the related statements of operations,
members’ equity, and cash flows (hereinafter referred to as “financial statements”) for the years then
ended. These financial statements are the responsibility of the CLF’s management. Our responsibility is to
express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the CLF’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the National Credit Union Administration Central Liquidity Facility as of
December 31, 2010 and 2009 and the results of its operations and its cash flows for the years then ended in
conformity with U.S. generally accepted accounting principles.

In accordance with Government Auditing Standards, we have also issued our reports dated February 10,
2011, on our consideration of the CLF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts and other matters. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




February 10, 2011




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
             NATIONAL CREDIT UNION ADMINISTRATION
                  CENTRAL LIQUIDITY FACILITY
                              As Of December 31, 2010 and 2009
                               (Dollars in thousands, except share data)

BALANCE SHEETS

                                                             2010                    2009
ASSETS


Cash and cash equivalents (Notes 3 and 5)              $              1,905      $           5,900
Investments held to maturity
   (Net of $4,306 and ($2,169) unamortized
   premium/(discount), fair value of $1,982,533
   and $1,832,955 as of 2010 and 2009,
   respectively) (Notes 4 and 5)                                  1,977,556             1,828,831
Loans to members (Notes 5 and 6)                                             -          8,312,751
Loan to related party (Notes 5 and 11)                                       -         10,000,000
Accrued interest receivable                                                500              23,591


TOTAL                                                  $          1,979,961      $     20,171,073



LIABILITIES AND MEMBERS’ EQUITY


LIABILITIES:
 Accounts payable and other liabilities                $                   239   $            171
 Dividends payable                                                    1,479                  1,375
 Federal Financing Bank notes payable (Notes 5
                                                                             -         18,312,751
  and 10)
 Accrued interest payable                                                    -              23,561
 Member deposits (Notes 5 and 8)                                           329                363


     Total Liabilities                                                2,047            18,338,221

MEMBERS’ EQUITY
 Capital stock – required ($50 per share par
 value authorized: 78,236,318 and 72,749,116
 shares; issued and outstanding: 39,118,159
 and 36,374,558 shares as of 2010 and 2009,
                                                                  1,955,908             1,818,728
 respectively) (Note 7)
 Retained earnings                                                   22,006                 14,124

     Total Members’ Equity                                        1,977,914             1,832,852


TOTAL                                                  $          1,979,961      $     20,171,073


See accompanying notes to financial statements.


                                                 -4-
                      NATIONAL CREDIT UNION ADMINISTRATION
                           CENTRAL LIQUIDITY FACILITY
                          For the Years Ended December 31, 2010 and 2009
                                             (Dollars in thousands)




STATEMENTS OF OPERATIONS


                                                                      2010                2009


REVENUE:
 Investment income                                             $             14,135   $           21,468
 Interest on loans                                                           45,610               85,649
 Gain on sale of investments                                                      -                  43


      Total Revenue                                                          59,745              107,160

EXPENSES: (Note 11)
 Personnel services                                                            344                  205
 Personnel benefits                                                             83                   48
 Other general and administrative expenses                                      56                   81

      Total Operating Expenses                                                 483                  334


 Interest – Federal Financing Bank notes payable (Note 10)                   45,610               85,649
 Interest – liquidity reserve                                                    2                    7

      Total Expenses                                                         46,095               85,990


NET INCOME                                                     $             13,650   $           21,170



See accompanying notes to financial statements.




                                                     -5-
                       NATIONAL CREDIT UNION ADMINISTRATION
                            CENTRAL LIQUIDITY FACILITY
                              For the Years Ended December 31, 2010 and 2009
                                          (Dollars in thousands, except share data)




STATEMENTS OF MEMBERS’ EQUITY


                                                       Capital Stock
                                                                                   S hareholder      Retained
                                               S hares             Amount              Loan          Earnings           Total


BALANCE – December 31, 2008                   34,154,171       $       1,707,710   $(1,719,574)      $    11,408    $       (456)

 Issuance of required capital stock            2,221,840                111,092                                           111,092

 Redemption of required capital stock              (1,453)                  (74)                                                (74)

 Repayment of shareholder loan (Note 7)                                                  1,719,574                      1,719,574

 Dividends declared ($0.51/share) (Notes
                                                                                                         (18,454)         (18,454)
  7 and 8)


 Net Income                                                                                               21,170           21,170


BALANCE – December 31, 2009                   36,374,558               1,818,728                 -        14,124        1,832,852


 Issuance of required capital stock            2,784,248                139,212                                           139,212

 Redemption of required capital stock             (40,647)               (2,032)                                           (2,032)


 Dividends declared ($0.15/share) (Notes
                                                                                                          (5,768)          (5,768)
   7 and 8)


 Net Income                                                                                               13,650           13,650

BALANCE – December 31, 2010                   39,118,159       $       1,955,908     $           -   $    22,006    $   1,977,914




See accompanying notes to financial statements.




                                                             -6-
                    NATIONAL CREDIT UNION ADMINISTRATION
                         CENTRAL LIQUIDITY FACILITY
                           For the Years Ended December 31, 2010 and 2009
                                              (Dollars in thousands)



STATEMENTS OF CASH FLOWS

                                                                           2010                 2009


CASH FLOWS FROM OPERATING ACTIVITIES:
 Net Income                                                            $          13,650    $          21,170
 Adjustments to Reconcile Net Income
   to Net Cash Provided by Operating Activities:
    Decrease/(Increase) in accrued interest receivable                            23,091               (8,922)
    (Decrease)/Increase in operating liabilities                               (23,492)                21,445

      Net Cash Provided by Operating Activities                                   13,249               33,693


CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchase of investments                                                    (1,222,725)          (1,828,831)
 Proceeds from maturing investments                                          1,074,000                       -
 Loan principal repayments/(disbursements) - net                            18,312,751          (16,727,273)


      Net Cash Provided by/(Used in) Investing Activities                   18,164,026          (18,556,104)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Issuance of required capital stock                                            139,212              111,092
 Dividends paid (Notes 7 and 8)                                                   (5,664)           (29,448)
 Redemption of required capital stock                                             (2,032)                (74)
 Withdrawal of member deposits                                                     (901)                (719)
 Repayment of shareholder loan                                                          -         1,719,574
 Additions to member deposits                                                        866                  596
 (Repayments of)/Proceeds from FFB Borrowings - net                        (18,312,751)          16,727,273

      Net Cash Provided by/(Used in) Financing Activities                  (18,181,270)          18,528,294


NET (DECREASE)/INCREASE IN CASH AND CASH
                                                                                  (3,995)               5,883
EQUIVALENTS

CASH AND CASH EQUIVALENTS– Beginning of Year                                       5,900                   17

CASH AND CASH EQUIVALENTS – End of Year                                $           1,905    $           5,900


SUPPLEMENTAL DISCLOSURE OF CASH FLOW
 INFORMATION – Cash Paid during the Year for Interest                  $          69,173    $          64,250


See accompanying notes to financial statements.



                                                      -7-
                    NATIONAL CREDIT UNION ADMINISTRATION
                         CENTRAL LIQUIDITY FACILITY
                           Notes to Financial Statements
                     As of and for the Years Ended December 31, 2010 and 2009
                                   (Dollars in thousands, except share data)

1. ORGANIZATION AND PURPOSE

The National Credit Union Administration (NCUA) Central Liquidity Facility (CLF) was created by
the National Credit Union Central Liquidity Facility Act (the “Act”). CLF is designated as a
mixed-ownership Government corporation under the Government Corporation Control Act. CLF
exists within NCUA and is managed by the NCUA Board. CLF became operational on October 1,
1979.

CLF was created to improve the general financial stability of credit unions by serving as a liquidity
lender to credit unions experiencing unusual or unexpected liquidity shortfalls. CLF accomplishes
its purpose by borrowing funds, subject to certain statutory limitations, when a liquidity need arises.

CLF is subject to various Federal laws and regulations. CLF’s operating budget requires
Congressional approval, and CLF may not make loans to members for the purpose of expanding
credit union loan portfolios. CLF’s investments are restricted to obligations of the U.S. Government
and its agencies, deposits in federally insured financial institutions, and shares and deposits in credit
unions. Borrowing is limited by statute to 12 times the subscribed capital stock and surplus.

2. SIGNIFICANT ACCOUNTING POLICIES

(a)     Basis of Presentation – CLF has historically prepared its financial statements in accordance
with accounting principles generally accepted in the United States of America (GAAP), based on
standards issued by the Financial Accounting Standards Board (FASB), the private-sector
standards-setting body. The Federal Accounting Standards Advisory Board (FASAB) is the
standards-setting body for the establishment of GAAP with respect to the financial statements of
Federal Government entities. FASAB has indicated that financial statements prepared based upon
standards promulgated by FASB may also be regarded as in accordance with GAAP for those
Federal entities, such as CLF, that have issued financial statements based upon FASB standards in
the past.

(b)    Basis of Accounting – CLF maintains its accounting records on the accrual basis of
accounting. CLF recognizes interest on loans and interest on investments when they are earned, and
recognizes interest on borrowings when it is incurred. CLF recognizes expenses when incurred.
CLF accrues and records dividends on capital stock monthly and pays dividends quarterly.

(c)       Use of Estimates – The preparation of financial statements in conformity with GAAP
requires management to make estimates and assumptions that affect the reported amounts of assets,
liabilities, and disclosures of contingent assets and liabilities at the date of the financial statements,
and the reported amounts of revenues and expenses during the reporting period. Actual results could
differ from management’s estimates.

(d)     Cash and Cash Equivalents – CLF considers all highly liquid investments with a maturity
of three months or less when purchased to be cash equivalents.



                                                     -8-
                    NATIONAL CREDIT UNION ADMINISTRATION
                         CENTRAL LIQUIDITY FACILITY
                           Notes to Financial Statements
                     As of and for the Years Ended December 31, 2010 and 2009
                                   (Dollars in thousands, except share data)

(e)     Investments – By statute, CLF investments are restricted to obligations of the U.S.
Government and its agencies, deposits in federally insured financial institutions, and shares and
deposits in credit unions. All investments are classified as held-to-maturity under FASB Accounting
Standards Codification (ASC) 320-10-25-1, Classification of Investment Securities, as CLF has the
intent and ability to hold these investments until maturity. Accordingly, CLF reports investments at
amortized cost. Amortized cost is the face value of the securities plus the unamortized premium or
less the unamortized discount.

Premiums and discounts are amortized or accreted over the life of the related held-to-maturity
investment as an adjustment to yield using the effective interest method. Such amortization and
accretion is included in the “investment income” line item in the Statement of Operations.

CLF records investment transactions when they are made.

(f)     Loans and Allowance for Loan Losses – Loans, when made to members, are on a
short-term or long-term basis. Loans are recorded at the amount disbursed and bear interest at the
higher of the Federal Financing Bank Advance Rate or the Federal Reserve Bank Discount Window
Primary Credit Rate. By regulation, Member Liquidity Needs Loans are made on a fully secured
basis. CLF obtains a security interest in the assets of the borrower equal to at least 110 percent of all
amounts due. For member loans issued under the Credit Union System Investment Program (CU
SIP) and Credit Union Homeowners Affordability Relief Program (CU HARP), CLF obtains a
security interest in the assets of the borrower equal to 200 percent of the amount due under the
programs. CLF does not currently charge fees for its lending activities.

CLF has form documents in place that reflect the repayment, security, and credit reporting terms
applicable to all CLF loans. CLF makes loan disbursements through the corporate credit union
network and relies on members of the corporate network to service loans it has made. CLF relies on
the U.S. Central Federal Credit Union (USC) and its successor, U.S. Central Bridge Corporate
Federal Credit Union (USC Bridge), (Note 7) as its agents and master servicers for all loans; USC
relies on the appropriate corporate credit union as its agent to service loans owed by its natural
person credit union members. CLF requires each corporate credit union acting as a loan servicer to
subordinate any claims it might have in the collateral owned by natural person credit unions that may
have been pledged to secure an advance from the corporate credit union.

CLF management reviews the allowance for loan losses annually. In determining the allowance for
loan losses, when applicable, CLF evaluates the collectability of its loans to members through
examining the financial condition of the individual borrowing credit unions and the credit union
industry in general.

A loan is considered impaired if it is probable that CLF will not collect all principal and interest
actually due. The impairment is measured based on the present value of expected future cash flows
discounted at the loan’s effective interest rate. CLF does not accrue interest when a loan is
considered impaired. When ultimate collectability of the principal balance of the impaired loan is in


                                                     -9-
                    NATIONAL CREDIT UNION ADMINISTRATION
                         CENTRAL LIQUIDITY FACILITY
                           Notes to Financial Statements
                     As of and for the Years Ended December 31, 2010 and 2009
                                  (Dollars in thousands, except share data)

doubt, all cash receipts on the impaired loan are applied to reduce the principal of such loan until the
principal has been recovered, and are recognized as interest income thereafter. Impairment losses
are charged against the allowance, and increases in the allowance are charged as bad debt expense.
Loans are written off against the allowance when all possible means of collection have been
exhausted and the potential for recovery is considered remote. There was no allowance and no past
due loans as of December 31, 2010 and 2009, and there were no write offs for fiscal years (FY) 2010
and 2009. CLF management considers write offs remote because all member loans must be
collateralized with a minimum of 110 percent of the outstanding amount.

CLF recognizes loans when they are issued and related repayments when they are received.

(g)     Borrowings – CLF’s borrowings are recorded when they are received, do not hold premiums
or discounts, and are carried at amortized cost. Repayments are recorded when they are made.

(h)     Tax-Exempt Status – CLF is exempt from Federal income taxes under Section 501(c)(1) of
the Internal Revenue Code.

(i)    Related Parties – CLF exists within NCUA and is managed by the NCUA Board. NCUA
Operating Fund (OF) provides CLF with information technology, support services, and supplies. In
addition, NCUA OF pays CLF’s employees’ salaries and benefits, as well as CLF’s portion of
monthly building operating costs. The allocation formula to calculate these expenses is based on the
number of full-time employees of the respective entities and the estimated amount of time CLF
employees spend performing CLF functions.

The National Credit Union Share Insurance Fund (NCUSIF) is also a related party. CLF has the
statutory authority to advance funds to NCUSIF; such advances were made in 2009 (Note 11).

3. CASH AND CASH EQUIVALENTS

CLF’s cash and cash equivalents as of December 31, 2010 and 2009 are as follows:

                                                 2010                 2009


     U.S. Treasury Securities                $        1,778       $           5,261
     USC Daily Transaction Share Account                110                    622
     PNC Bank                                               17                  17


          Total                              $        1,905       $           5,900


The USC Daily Transaction Share Account is a variable rate share account used primarily for CLF
clearing transactions. The account is available only to CLF. U.S. Treasury securities had an initial
term of less than three months when purchased.



                                                   - 10 -
                      NATIONAL CREDIT UNION ADMINISTRATION
                           CENTRAL LIQUIDITY FACILITY
                             Notes to Financial Statements
                       As of and for the Years Ended December 31, 2010 and 2009
                                       (Dollars in thousands, except share data)

4. INVESTMENTS

The carrying amount, gross unrealized holding gains, gross unrealized losses, and the fair value of
held-to-maturity debt securities as of December 31, 2010 and 2009 were as follows:
                                                                                            Gross
                                                                           Gross          Unrealized
                                                      Carrying          Unrealized         Holding
                                                      Amount           Holding Gains       Losses              Fair Value
  As of December 31, 2010:
  U.S. Treasury Securities:                       $    1,977,556                  4,977          -                 1,982,533


  As of December 31, 2009:
  U.S. Treasury Securities:                       $    1,828,831                  4,335         (211)              1,832,955

Maturities of debt securities classified as held-to-maturity were as follows as of December 31, 2010
and 2009:

                                                                    2010                                2009
                                                         Net                                Net
                                                       Carrying            Aggregate      Carrying             Aggregate
                                                       Amount              Fair Value     Amount               Fair Value
         Due in one year or less                      $ 1,868,391          $ 1,873,003    $   993,122          $   994,036
         Due after one year through five years            104,183              104,416        832,721              836,083
         Due after five years through ten years             4,982                5,114          2,988                2,836
               Total                                  $ 1,977,556          $ 1,982,533    $ 1,828,831          $ 1,832,955



5. FAIR VALUE MEASUREMENTS

FASB ASC 820-10-05, Fair Value Measurements, defines fair value, establishes a consistent
framework for measuring fair value, and expands disclosure requirements for fair value
measurements. The standard establishes a fair value hierarchy that prioritizes the inputs to valuation
techniques used to measure fair value. The hierarchy gives the highest priority to unadjusted quoted
prices in active markets for identical assets or liabilities (level 1 measurements) and the lowest
priority to measurements involving significant unobservable inputs (level 3 measurements). The
three levels of the fair value hierarchy are as follows:

   •    Level 1 inputs are quoted prices (unadjusted) in active markets for identical assets or
        liabilities that CLF has the ability to access at the measurement date
   •    Level 2 inputs are inputs other than quoted prices included within Level 1 that are observable
        for the asset or liability, either directly or indirectly
   •    Level 3 inputs are unobservable inputs for the asset or liability.



                                                            - 11 -
                   NATIONAL CREDIT UNION ADMINISTRATION
                        CENTRAL LIQUIDITY FACILITY
                          Notes to Financial Statements
                    As of and for the Years Ended December 31, 2010 and 2009
                                  (Dollars in thousands, except share data)


The following table presents the carrying amounts and established fair values of CLF’s financial
instruments as of December 31, 2010 and 2009. The fair value of an instrument is the amount that
would be received to sell an asset or would be paid to transfer a liability in an orderly transaction
between market participants by the measurement date.

Cash and cash equivalents – The carrying amounts for cash and cash equivalents approximate fair
value.

Investments held-to-maturity – CLF’s investments held-to-maturity are all comprised of U.S.
Treasury Securities, for which a share price can be readily obtained. The fair value for investments
is determined using the quoted market prices at the reporting date (observable inputs).

Loans – For loans advanced to member credit unions and the loans to related party, the carrying
amounts approximate fair value because all loans have a maturity of one year or less.

Federal Financing Bank Notes Payable – For notes issued to the Federal Financing Bank (FFB),
when applicable, the carrying amounts approximate fair value because all borrowings have a
maturity of one year or less.

Member Deposits – Funds maintained with CLF in excess of required capital amounts are recorded
as member deposits. These deposits are due upon demand; therefore, carrying amounts approximate
the fair value.

Other – Accrued interest receivable, accounts payable and other liabilities, dividends payable, and
accrued interest payable are recorded at book values, which approximate the respective fair values.

The carrying values and approximate fair values of financial instruments as of December 31, 2010
and December 31, 2009 are as follows:




                                                   - 12 -
                    NATIONAL CREDIT UNION ADMINISTRATION
                         CENTRAL LIQUIDITY FACILITY
                           Notes to Financial Statements
                     As of and for the Years Ended December 31, 2010 and 2009
                                       (Dollars in thousands, except share data)

                                                    2010                                   2009
                                            Carrying     Fair                      Carrying     Fair
               Financial Instruments         Value       Value                      Value       Value

            Cash and cash equivalents       $    1,905    $       1,905            $   5,900    $   5,900
            Investments held to
            maturity                         1,977,556      1,982,533               1,828,831    1,832,955
            Loans to members                         -              -               8,312,751    8,312,751
            Loan to related party                    -              -              10,000,000   10,000,000
            Accrued interest receivable            500            500                  23,591       23,591

            Accounts payable and
            other liabilities                      239              239                  171          171
            Dividends payable                    1,479            1,479                1,375        1,375
            Federal Financing Bank
            notes payable                            -               -             18,312,751   18,312,751
            Accrued interest payable                 -               -                 23,561       23,561
            Member deposits                        329             329                    363          363


6. LOANS TO MEMBERS

CLF has form documents in place that reflect the repayment, security, and credit reporting terms
applicable to all CLF loans. CLF makes loan disbursements through the corporate credit union
network and relies on members of the corporate network to service loans it has made. CLF relies on
USC and its successor, USC Bridge, as its agents and master servicers for all loans; USC relies on
the appropriate corporate credit union as its agent to service loans owed by its natural person credit
union members. CLF requires each corporate credit union acting as loan servicer to subordinate any
claims it might have in the collateral owned by natural person credit unions that may have been
pledged to secure an advance from the corporate credit union.

In January 2009, the NCUA Board changed the methodology by which CLF funded natural person
credit union loans by modifying the agreement between CLF and USC, and creating a new
assignment agreement between CLF and USC. This change was effective for all CLF loans made
after January 20, 2009. Prior to the changes, loan proceeds were passed through USC to the
corporate credit union and ultimately to the natural person credit union. Loan documents were
signed at each level such that the natural person credit union borrower was indebted to its corporate
credit union, which was indebted to USC, which was obligated to repay the advance to CLF. The
NCUA Board approved streamlining this relationship so that the indebtedness of the natural person
credit union to CLF is direct.

During 2009, the NCUA Board obtained concurrence from the Secretary of the Treasury and the
Board of Governors of the Federal Reserve System on its determination that extensions of credit to
members of CLF for purposes other than the statutorily defined liquidity needs are in the national
economic interest, with the understanding that extensions of credit will not be made or used for a



                                                         - 13 -
                   NATIONAL CREDIT UNION ADMINISTRATION
                        CENTRAL LIQUIDITY FACILITY
                          Notes to Financial Statements
                    As of and for the Years Ended December 31, 2010 and 2009
                                 (Dollars in thousands, except share data)

purpose that conflicts with the Federal Credit Union Act (12 USC §1795a). CLF began making
Other Than Liquidity Needs (OTLN)-based loans in January 2009.

The two initiatives for OTLN lending are CU SIP and CU HARP. All loans granted under CU SIP
matured in the first quarter of 2010, while the CU HARP loans matured December 30, 2010. The
CU SIP and CU HARP loan amounts, maturity dates, and interest rates are presented in the table
below. Both programs were match-funded with advances from the FFB.

                                   Amount             Maturity Date          Interest Rate

               CU SIP 1            $ 4,801,984              1/8/2010           0.5650%
               CU SIP 2              2,915,062             2/12/2010           0.7060%
               CU SIP 3                500,000             3/12/2010           0.8290%
               CU HARP                  95,705             12/30/2010          0.5740%
                    Total          $ 8,312,751


7. CAPITAL STOCK

Membership in CLF is voluntary and is open to all credit unions that purchase a prescribed amount
of capital stock. CLF capital stock is non-voting and shares have a par value of $50. There are two
types of membership—regular (natural person credit unions) and agent (corporate credit unions).
Natural person credit unions may borrow from CLF directly as a regular member or indirectly
through an agent member.

The capital stock account represents subscriptions remitted to CLF by member credit unions.
Regular members’ required subscription amounts equal one-half of one percent of their paid-in and
unimpaired capital and surplus, one-half of which is required to be remitted to CLF. Agent
members’ required subscription amounts equal one-half of one percent of the paid-in and unimpaired
capital and surplus of all of the credit unions served by the agent member, one-half of which is
required to be remitted to CLF. In both cases, member credit unions are required to hold the
remaining one-half in liquid assets subject to call by the NCUA Board. These unremitted
subscriptions are not reflected in CLF’s financial statements. Subscriptions are adjusted annually to
reflect changes in the member credit unions’ paid-in and unimpaired capital and surplus. Dividends
are non-cumulative, and are declared and paid only on required capital stock.

During FY1984, CLF accepted a membership request from USC on behalf of its corporate credit
union members. As of December 31, 2009, $1,750,551 of CLF capital stock was purchased by USC
on behalf of its member corporate credit union members. USC had 26 corporate credit union
members as of December 31, 2009.

On October 1, 2010, USC was liquidated and certain Balance Sheet items were conveyed, with no
change to the rights and obligations, to the newly chartered USC Bridge as of the liquidation date,
including the capital stock of CLF. As of December 31, 2010, $1,885,176 of CLF capital stock was
purchased by USC Bridge on behalf of its member corporate credit union members. CLF has a plan


                                                  - 14 -
                    NATIONAL CREDIT UNION ADMINISTRATION
                         CENTRAL LIQUIDITY FACILITY
                           Notes to Financial Statements
                        As of and for the Years Ended December 31, 2010 and 2009
                                    (Dollars in thousands, except share data)

for the transfer of ownership of the capital stock to member credit unions when USC Bridge
ultimately winds down. USC Bridge had 25 corporate credit union members as of December 31,
2010.

A member of CLF whose capital stock account constitutes less than five percent of the total capital
stock outstanding may withdraw from membership in CLF six months after notifying the NCUA
Board of its intention. A member whose capital stock account constitutes five percent or more of the
total capital stock outstanding may withdraw from membership in CLF two years after notifying the
NCUA Board of its intention. As of December 31, 2010, CLF had no member withdrawal requests
pending.

The required capital stock is redeemable upon demand by the members, subject to certain
conditions; however, the stock is not deemed “mandatorily redeemable” as defined in FASB ASC
480-10-25-7, Mandatorily Redeemable Financial Instruments; therefore capital stock is classified in
permanent equity.

CLF’s capital stock accounts were composed of the following as of December 31, 2010 and 2009:


                                               2010                                 2009
                                   Shares                 Amount        Shares             Amount

          Regular members          1,414,633          $       70,732    1,363,531      $      68,177
          Agent members           37,703,526               1,885,176   35,011,027          1,750,551

                Total             39,118,159          $ 1,955,908      36,374,558      $ 1,818,728


Dividends on capital stock are declared based on available earnings and the dividend policy set by
the NCUA Board. Dividends are accrued monthly based on prior quarter-end balances and paid on
the first business day after the quarter-end. The dividend rates paid on capital stock for both regular
and agent members change quarterly.

During 2009, USC paid in full $1,719,574 for an outstanding shareholder loan.

8. MEMBER DEPOSITS

Member deposits represent amounts remitted by members over and above the amount required for
membership. Interest is paid on member deposits at a rate equivalent to the dividend rate paid on
required capital stock.

9. CONCENTRATION OF CREDIT RISK

In January 2009, the NCUA Board announced two additional actions, which provided immediate
enhancement to the corporate credit union system’s liquidity and capital positions. One of these


                                                          - 15 -
                   NATIONAL CREDIT UNION ADMINISTRATION
                        CENTRAL LIQUIDITY FACILITY
                          Notes to Financial Statements
                    As of and for the Years Ended December 31, 2010 and 2009
                                 (Dollars in thousands, except share data)

actions was a temporary NCUSIF guarantee of member shares in corporate credit unions. The
guarantee covers all shares through December 31, 2012 and included CLF’s deposit in the USC
Daily Transaction Share Account.

10. BORROWING AUTHORITY

CLF is authorized by statute to borrow, from any source, an amount not to exceed 12 times its
subscribed capital stock and surplus. Until October 1, 2008, Congress, through the appropriations
process, placed a limit on gross obligations at $1,500,000. However, effective October 1, 2008,
under Public Law 110-329, Consolidated Security, Disaster Assistance, and Continuing
Appropriations Act, 2009, Congress took action to remove the annual borrowing limitation of
$1,500,000 to enable CLF to borrow up to its full statutory authority. As of December 31, 2010,
CLF’s statutory borrowing authority was $47,205,862.

CLF borrows exclusively from FFB. NCUA maintains a note purchase agreement with FFB on
behalf of CLF. Under the terms of its agreement, CLF borrows from FFB as needed. Under terms
prescribed by the master note agreement, CLF executes promissory notes in amounts as necessary
and renews them annually. Advances made under the current promissory notes cannot exceed
$35,000,000 and cannot mature later than March 31, 2012. During 2010, CLF borrowed amounts
totaling $5,000 from FFB under one loan agreement, which CLF then loaned to a member credit
union. As of December 31, 2010, CLF had $35,000,000 available capacity to borrow under its
current promissory notes, and such funds are available through March 31, 2011.

As of December 31, 2010, CLF was in compliance with its borrowing authority.

11. RELATED PARTY TRANSACTIONS

NCUA OF pays the salaries and benefits of CLF’s employees, CLF’s building, and operating costs.
Expenses are allocated by applying the ratio of CLF full-time equivalent employees to the NCUA
total. These expenses are reimbursed to NCUA OF quarterly. All other CLF reimbursement
expenses are paid annually. The total amount charged by NCUA was approximately $483 and $334,
respectively, for December 31, 2010 and 2009. Accounts payable and other liabilities include
approximately $183 and $145, respectively, for December 31, 2010 and 2009, due to NCUA OF for
services provided.

On March 19, 2009, the NCUA Board took steps to stabilize the corporate credit union system when
it placed USC and Western Corporate Federal Credit Union (WesCorp) into conservatorship. CLF
entered into a Funding Commitment and Agreement, as well as a Short-Term Revolving Promissory
Note, on March 20, 2009, to fund $20,000,000 with a final maturity date of any advance of
December 31, 2010. There was $10,000,000 remaining on this commitment as of December 31,
2009. CLF approved an advance of $10,000,000 to NCUSIF in order for NCUSIF to make
$5,000,000 in liquidity stabilization loans to both USC and WesCorp. This advance was made on
March 23, 2009, for a period of 91 days, maturing on June 22, 2009. On June 22, 2009, the advance
was renewed for an additional 182 days, maturing on December 21, 2009. On December 21, 2009,


                                                  - 16 -
                   NATIONAL CREDIT UNION ADMINISTRATION
                        CENTRAL LIQUIDITY FACILITY
                          Notes to Financial Statements
                    As of and for the Years Ended December 31, 2010 and 2009
                                 (Dollars in thousands, except share data)

the advance was renewed again for an additional 365 days, maturing on December 21, 2010. The
advance bears interest at a rate of 0.5280% per annum. CLF elected to repurchase this note from
FFB prior to the original stated maturity and all amounts due to FFB were paid on October 12, 2010.

12. SUBSEQUENT EVENTS

Management evaluated all events and transactions that occurred after December 31, 2010 through
February 10, 2011, which is the date CLF issued these financial statements, and determined that
there are no other items to disclose.




                                                  - 17 -
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, Nation Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the balance sheets of the National Credit Union Administration Central Liquidity Fund
(CLF) as of December 31, 2010 and 2009 and the related statements of operations, members’ equity, and
cash flows (hereinafter referred to as “financial statements”) for the years then ended, and have issued our
report thereon dated February 10, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the CLF is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2010 audit, we considered the CLF’s internal control over financial
reporting by obtaining an understanding of the CLF’s internal control, determining whether internal
controls had been placed in operation, assessing control risk, and performing tests of controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the financial statements,
but not for the purpose of expressing an opinion on the effectiveness of the CLF’s internal control over
financial reporting. Accordingly, we do not express an opinion on the effectiveness of the CLF’s internal
control over financial reporting. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2010 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.




                                  KPMG LLP is a Delaware limited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative
                                  (“KPMG International”), a Swiss entity.
National Credit Union Administration Central Liquidity Facility
February 10, 2011
Page 2 of 2




Exhibit I presents the status of the prior year significant deficiency.

This report is intended solely for the information and use of the addressees, the CLF’s management, the
OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and
should not be used by anyone other than these specified parties.




February 10, 2011
                                                                                        Exhibit I
                        NATIONAL CREDIT UNION ADMINISTRATION –
                              CENTRAL LIQUIDITY FACILITY
                               STATUS OF PRIOR YEAR FINDINGS



                    2009 Finding                            Deficiency Type        2010 Status

CLF should improve and formalize its processes and
controls over the preparation of the financial
                                                          Significant Deficiency     Closed
statements, especially with respect to the statement of
cash flows and the statement of members' equity.
                              KPMG LLP
                              2001 M Street, NW
                              Washington, DC 20036-3389




                    Independent Auditors’ Report on Compliance and Other Matters


Inspector General, Nation Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the balance sheets of the National Credit Union Administration Central Liquidity Facility
(CLF) as of December 31, 2010 and 2009, and the related statements of operations, members’ equity, and
cash flows (hereinafter referred to as “financial statements”) for the years then ended, and have issued our
report thereon dated February 10, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the CLF is responsible for complying with laws, regulations, contracts, and grant
agreements applicable to the CLF. As part of obtaining reasonable assurance about whether the CLF’s
financial statements are free of material misstatement, we performed tests of the CLF’s compliance with
certain provisions of laws, regulations, contracts, and grant agreements, noncompliance with which could
have a direct and material effect on the determination of the financial statement amounts, and certain
provisions of other laws and regulations specified in OMB Bulletin No. 07-04. We limited our tests of
compliance to the provisions described in the preceding sentence, and we did not test compliance with all
laws, regulations, and contracts applicable to the CLF. However, providing an opinion on compliance with
those provisions was not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our other tests of compliance discussed in the third paragraph of this report disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the addressees, CLF’s management, OMB, the
U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should not be
used by anyone other than these specified parties.




February 10, 2011




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
National Credit Union Administration
Community Development
Revolving Loan Fund
Financial Statements as of and for the
Years Ended December 31, 2010 and 2009, and
Independent Auditors’ Reports
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
TABLE OF CONTENTS


                                                               Page

INDEPENDENT AUDITORS’ REPORT

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
 DECEMBER 31, 2010 AND 2009:

 Balance Sheets                                                 1

 Statements of Operations                                       2

 Statements of Changes in Fund Balance                          3

 Statements of Cash Flows                                       4

 Notes to Financial Statements                                 5-10

INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
  FINANCIAL REPORTING

INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND OTHER MATTERS
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




                         Independent Auditors’ Report on Financial Statements


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Administration
Community Development Revolving Loan Fund (CDRLF) as of December 31, 2010 and 2009, and the
related statements of operations, changes in fund balance, and cash flows (hereinafter referred to as
“financial statements”) for the years then ended. These financial statements are the responsibility of the
CDRLF’s management. Our responsibility is to express an opinion on these financial statements based on
our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the CDRLF’s
internal control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the CDRLF as of December 31, 2010 and 2009, and its results of operations, changes
in fund balance, and cash flows for the years then ended in conformity with U.S. generally accepted
accounting principles.

In accordance with Government Auditing Standards, we have also issued our reports dated February 10,
2011, on our consideration of the CDRLF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and grant agreements and other matters.
The purpose of those reports is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. Those reports are an integral part of an audit performed
in accordance with Government Auditing Standards and should be read in conjunction with this report in
assessing the results of our audits.




February 10, 2011




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
BALANCE SHEETS
AS OF DECEMBER 31, 2010 AND 2009


                                                                2010             2009
ASSETS

Cash and Cash Equivalents (Note 3)                          $ 11,566,056     $    8,949,290

Loans Receivable (Notes 5, 6, and 7)                             5,482,614        8,818,487

Interest Receivable (Note 7)                                       12,984           19,193

Total                                                       $ 17,061,654     $ 17,786,970



LIABILITIES AND FUND BALANCE

LIABILITIES — Accrued Technical Assistance (Note 7)         $    2,194,094   $    1,604,064



FUND BALANCE:

 Fund Capital                                                   13,387,777       14,637,777
 Accumulated Earnings                                            1,479,783        1,545,129


        Total Fund Balance                                      14,867,560       16,182,906


Total                                                       $ 17,061,654     $ 17,786,970

See accompanying notes to financial statements.




                                                      -1-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
STATEMENTS OF OPERATIONS
FOR THE YEARS ENDED DECEMBER 31, 2010 AND 2009


                                                            2010            2009

SUPPORT AND REVENUES:
 Interest on Cash Equivalents (Notes 3 and 7)           $       6,497   $       4,066
 Interest on Loans (Note 7)                                    72,925         102,584
 Appropriation Revenue (Note 4)                             1,250,000       1,000,000
       Total Support and Revenues                           1,329,422       1,106,650

EXPENSES:
 Technical Assistance                                       1,394,720       1,049,778
 Provision for Loan Losses                                         48          (1,950)
       Total Expenses                                       1,394,768       1,047,828

NET INCOME/(LOSS)                                       $    (65,346)   $     58,822



See accompanying notes to financial statements.




                                                  -2-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
STATEMENTS OF CHANGES IN FUND BALANCE
FOR THE YEARS ENDED DECEMBER 31, 2010 AND 2009


                                                    Fund Capital
                                                    For Technical          Total Fund Accumulated        Total Fund
                                       For Loans     Assistance              Capital    Earnings          Balance
December 31, 2008                       $13,387,777       $47,865           $13,435,642  $1,486,307       $14,921,949

Appropriations Received (Note 4)                   -          2,250,000       2,250,000            -        2,250,000
Appropriations Expended                            -         (1,000,000)     (1,000,000)           -       (1,000,000)
Appropriations Expired                             -            (47,865)        (47,865)           -          (47,865)
Net Income                                         -                  -               -       58,822           58,822

December 31, 2009                         13,387,777         1,250,000       14,637,777     1,545,129      16,182,906

Appropriations Received (Note 4)                   -                  -               -             -               -
Appropriations Expended                            -         (1,250,000)     (1,250,000)            -      (1,250,000)
Appropriations Expired                             -                  -               -             -               -
Net Loss                                           -                  -               -       (65,346)        (65,346)

December 31, 2010                        $13,387,777                  -     $13,387,777    $1,479,783     $14,867,560



See accompanying notes to financial statements.




                                                       -3-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2010 AND 2009


                                                                     2010              2009

CASH FLOWS FROM OPERATING ACTIVITIES:

Net (Loss)/Income                                                $      (65,346) $        58,822
Adjustments to Reconcile Net (Loss)/Income to Net Cash Used in
  Operating Activities:
  Appropriation Revenue Recognized                                   (1,250,000)       (1,000,000)
  Changes in Assets and Liabilities:
     Decrease in Interest Receivable                                     6,209             6,427
     Increase in Accrued Technical Assistance                          590,030           336,687

       Net Cash Used in Operating Activities                          (719,107)         (598,064)

CASH FLOWS FROM INVESTING ACTIVITIES:
 Loan Principal Repayments                                            3,607,388         4,323,025
 Loan Disbursements                                                    (271,515)       (2,588,000)

       Net Cash Provided by Investing Activities                      3,335,873        1,735,025

CASH FLOWS FROM FINANCING ACTIVITIES:
 Appropriations Received 2009/2010                                          -          1,000,000
 Appropriations Received 2010/2011                                          -          1,250,000
 Appropriations Expired                                                     -            (47,865)
      Net Cash Provided by Financing Activities                             -          2,202,135

NET INCREASE IN CASH AND CASH EQUIVALENTS                             2,616,766        3,339,096

CASH AND CASH EQUIVALENTS — Beginning of Year                         8,949,290        5,610,194

CASH AND CASH EQUIVALENTS — End of Year                          $   11,566,056    $   8,949,290



See accompanying notes to financial statements.




                                                      -4-
  NATIONAL CREDIT UNION ADMINISTRATION
  COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
  NOTES TO FINANCIAL STATEMENTS
  AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2010 AND 2009


1.      NATURE OF ORGANIZATION

  The Community Development Revolving Loan Fund (CDRLF) for credit unions was established
  by an act of Congress (Public Law 96-123, November 20, 1979) to stimulate economic
  development in low-income communities. The National Credit Union Administration (NCUA)
  and the Community Services Association (CSA) jointly adopted Part 705 of NCUA Rules and
  Regulations, governing administration of CDRLF, on February 28, 1980.

  Upon the dissolution of CSA in 1983, administration of CDRLF was transferred to the
  Department of Health and Human Services (HHS). From 1983 through 1990, CDRLF was
  dormant.

     The Community Development Credit Union Transfer Act (Public Law 99-609, November 6,
     1986) transferred CDRLF administration back to NCUA. The NCUA Board adopted
     amendments to Part 705 of NCUA Rules and Regulations on September 16, 1987, and began
     making loans/deposits to participating credit unions in 1990.

     The purpose of CDRLF is to stimulate economic activities in the communities served by
     low-income credit unions, which is expected to result in increased income, ownership, and
     employment opportunities for low-income residents, and other economic growth. The policy of
     NCUA is to revolve the loans to qualifying credit unions as often as practical in order to gain
     maximum impact on as many participating credit unions as possible.

2.      SIGNIFICANT ACCOUNTING AND OPERATIONAL POLICIES

 Basis of Presentation – CDRLF has historically prepared its financial statements in accordance
 with accounting principles generally accepted in the United States of America (GAAP), based on
 standards issued by the Financial Accounting Standards Board (FASB), the private sector
 standards setting body. The Federal Accounting Standards Advisory Board (FASAB) is the
 standards setting body for the establishment of GAAP with respect to the financial statements of
 Federal Government entities. FASAB has indicated that financial statements prepared based
 upon standards promulgated by FASB may also be regarded as in accordance with GAAP for
 Federal entities that have issued financial statements based upon FASB standards in the past.

  Basis of Accounting – CDRLF reports its financial statements on the accrual basis of accounting
  in conformity with GAAP.




                                                   -5-
Cash Equivalents – The Federal Credit Union Act permits CDRLF to make investments in
United States Government Treasury securities. All investments in 2010 and 2009 were cash
equivalents and were stated at cost, which approximates fair value. Cash equivalents are highly
liquid investments with original maturities of three months or less.

Loans Receivable and Allowance for Loan Losses – Loans are limited to a maximum amount
of $300,000 per credit union. By regulation, a loan may have a fixed annual percentage rate of
not more than 3% and not less than 1%. Per NCUA policy, loans issued after January 1, 2002
carry a fixed annual rate of 1%. Interest and principal are to be repaid on a semiannual basis
beginning six months and one year, respectively, after the initial distribution of the loan. The
maximum term of each loan is five years.

CDRLF records a provision for estimated loan losses based on historical loss experience. A
provision for loans considered to be uncollectible is charged to the income statement when such
losses are probable and reasonably estimable. Provisions for significant uncollectible amounts
are credited to an allowance for loan losses, while de minimis amounts are directly charged-off
or recovered. Management continually evaluates the adequacy of the allowance for loan losses
based upon prevailing circumstances and an assessment of collectability risk of the total loan
portfolio. On the basis of this analysis, no allowance for loan losses was necessary as of
December 31, 2010 and 2009. Accrual of interest is discontinued on non-performing loans when
management believes collectability is doubtful.

Overhead Expenses – NCUA provides certain general and administrative support to CDRLF,
including office space, salaries, and certain supplies. The value of these contributed services is
not charged to CDRLF.

Revenue Recognition – Appropriation revenue is recognized according to FASB ASC 958-605,
Revenue Recognition for Non-Profit Entities, as the related technical assistance expense is
recognized. Total appropriation revenues will differ from total technical assistance expenses
because not all technical assistance is funded by appropriations. Interest income on cash and
equivalents, and on loans is recognized when earned.

Expense Recognition – Technical assistance expense is recognized when CDRLF makes a
formal commitment to the recipient credit union for technical assistance and other grants.

Use of Estimates – The preparation of financial statements in conformity with GAAP requires
management to make estimates and assumptions that affect the reported amounts of assets and
liabilities, as well as the disclosure of contingent assets and liabilities at the date of the financial
statements, and the reported amounts of revenues and expenses during the reporting period.
Actual results could differ from management’s estimates.

Income Taxes – CDRLF is exempt from Federal income taxes under Section 501(c)(1) of the
Internal Revenue Code.




                                                  -6-
3.      CASH AND CASH EQUIVALENTS

  CDRLF’s cash and cash equivalents as of December 31, 2010 and December 31, 2009 are as
  follows:

                                                             2010             2009
                             Deposit U.S. Treasury        $ 5,566,056      $3,949,290
                             U.S. Treasury Overnights       6,000,000       5,000,000
                                                          $11,566,056      $8,949,290


4.      GOVERNMENT REGULATIONS

  CDRLF is subject to various Federal laws and regulations. Assistance, which includes lending
  and technical assistance, is limited by Congress to a total of the $16,182,906 appropriated to date
  for CDRLF, which includes accumulated earnings. Federally-chartered and state-chartered
  credit unions with a low-income designation are eligible to participate in CDRLF’s loan and
  technical assistance program.

     During the year ended December 31, 2010, CDRLF received no appropriations.

     During the year ended December 31, 2009, CDRLF received appropriations for technical
     assistance in the amount of $2,250,000: $1,000,000 for fiscal years (FY) 2009-2010, with no
     rescissions; and, $1,250,000 for FYs 2010 – 2011 with no rescissions.

     These amounts were designated to be used for technical assistance, and no amounts were
     designated to be used as revolving loans.

     No appropriations were remitted to the U.S. Treasury in 2010 upon expiration.

     Appropriations in the amount of $47,865 from FYs 2003 and 2004 were remitted to the U.S.
     Treasury in 2009 upon expiration.

     For the appropriations received for technical assistance for FY 2009 – 2010, $1,000,000 expired
     on September 30, 2010 and $1,250,000 expires on September 30, 2011.




                                                   -7-
5.      LOANS RECEIVABLE

  Loans outstanding as of December 31, 2010, are scheduled to be repaid during the following
  subsequent years:

                                                                    2010

                               2011                             $    2,350,099
                               2012                                  2,059,818
                               2013                                    520,499
                               2014                                    500,499
                               2015                                     51,699
                               Loans Outstanding                     5,482,614
                               Allowance for loan losses                     -
                               Total Loans Receivable           $    5,482,614


  NCUA Rules and Regulations Section 705.7 permits the classification of the loan in the
  participating credit union’s accounting records as a non-member deposit. As a non-member
  deposit, an amount not to exceed $250,000 per credit union is insured by the National Credit
  Union Share Insurance Fund (NCUSIF). The aggregate amount of uninsured loans totaled
  $7,021 and $293,910 as of December 31, 2010 and 2009, respectively.

  CDRLF has the intent and ability to hold its loans to maturity. CDRLF anticipates realizing the
  carrying amount in full.

6.      CONCENTRATION OF CREDIT RISK

  As of December 31, 2010 and December 31, 2009, there are no significant geographic or
  individual counterparty concentrations of credit risk in the loan portfolio. As discussed in
  Note 1, CDRLF provides loans to credit unions that serve predominantly low-income
  communities.

7.      ESTIMATED FAIR VALUE OF FINANCIAL INSTRUMENTS

     CDRLF adopted the provisions of FASB ASC 820-10-05, Fair Value Measurements, for fair
     value measurements of financial assets and financial liabilities. The standard defines fair value,
     establishes a consistent framework for measuring fair value, and expands disclosure
     requirements for fair value measurements. The standard establishes a fair value hierarchy that
     prioritizes the inputs to valuation techniques used to measure fair value. The hierarchy gives the
     highest priority to unadjusted quoted prices in active markets for identical assets or liabilities
     (level 1 measurements) and the lowest priority to measurements involving significant
     unobservable inputs (level 3 measurements). The three levels of the fair value hierarchy are as
     follows:

        •   Level 1 inputs are quoted prices (unadjusted) in active markets for identical assets or
            liabilities that CDRLF has the ability to access at the measurement date


                                                    -8-
         •    Level 2 inputs are inputs other than quoted prices included within Level 1 that are
              observable for the asset or liability, either directly or indirectly
         •    Level 3 inputs are unobservable inputs for the asset or liability.

  The fair value of an instrument is the amount that would be received to sell an asset or would be
  paid to transfer a liability in an orderly transaction between market participants by the
  measurement date.

 Loans Receivable – Fair value is estimated using an income approach by discounting each
 individual loan’s projected future cash flow. CDRLF believes that the discount rate reflects the
 pricing and risk of the loans to CDRLF. Loans are valued yearly on December 31, 2010.

  Other – The carrying amounts for cash and cash equivalents, interest receivable, and accrued
  technical assistance approximate fair value.

  The following table presents the carrying amounts and established fair values of CDRLF’s
  financial instruments as of December 31, 2010 and 2009.

                                                    2010                                      2009
                                     Carrying Amount Estimated Fair Value      Carrying Amount Estimated Fair Value

     Assets:
      Cash and cash equivalents      $     11,566,056   $         11,566,056   $      8,949,290   $        8,949,290
      Loans receivable                      5,482,614              5,496,833          8,818,487            8,310,773
      Interest receivable                      12,984                 12,984             19,193               19,193

     Liabilities:
      Accrued technical assistance          2,194,094              2,194,094          1,604,064            1,604,064


8.       OVERHEAD EXPENSES

 NCUA, in supporting the activities of CDRLF, provides for the administration of CDRLF. The
 administrative costs paid by NCUA’s Operating Fund (OF) are directly related to the percentage
 of employee’s time spent on CDRLF. The administrative cost calculation takes into account the
 employees’ salary, benefits, travel, training, and certain “other” costs (e.g., telephone, supplies,
 printing, and postage).

 For the years ending December 31, 2010 and December 31, 2009, NCUA, through the OF, paid
 the following overhead expenses on behalf of CDRLF:




                                                            -9-
                                              2010            2009

                             Employee        $ 387,233       $ 242,223
                             Other              15,519          12,303

                             Total           $ 402,752       $ 254,526



 9. SUBSEQUENT EVENTS

Subsequent events have been evaluated through February 10, 2011, which is the date the
financial statements were available to be issued, and management determined that there are no other
items to disclose.




                                               - 10 -
                                 KPMG LLP
                                 2001 M Street, NW
                                 Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the balance sheets of the National Credit Union Administration Community Development
Revolving Loan Fund (CDRLF) as of December 31, 2010 and 2009 and the related statements of
operations, changes in fund balance, and cash flows (hereinafter referred to as “financial statements”) for
the years then ended, and have issued our report thereon dated February 10, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the CDRLF is responsible for establishing and maintaining effective internal control.
In planning and performing our fiscal year 2010 audit, we considered the CDRLF’s internal control over
financial reporting by obtaining an understanding of the CDRLF’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of the CDRLF’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of the
CDRLF’s internal control over financial reporting. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2010 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.




                                  KPMG LLP is a Delaware limited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative
                                  (“KPMG International”), a Swiss entity.
National Credit Union Administration Community Development Revolving Loan Fund
February 10, 2011
Page 2 of 2




Exhibit I presents the status of prior year significant deficiency and material weaknesses.

This report is intended solely for the information and use of the addressees, CDRLF’s management, OMB,
the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should not
be used by anyone other than these specified parties.




February 10, 2011
                                                                             Exhibit I
                    NATIONAL CREDIT UNION ADMINISTRATION –
                 COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
                           STATUS OF PRIOR YEAR FINDINGS




                  2009 Finding                   Deficiency Type        2010 Status

Improvements Needed in Management’ Review
Procedures Over the Cash Handling and            Material Weakness        Closed
Reconciliation Process

Improvements Needed in Management’s Review
Procedures Over the Financial Accounting and   Significant Deficiency     Closed
Reporting Process
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




                    Independent Auditors’ Report on Compliance and Other Matters


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the balance sheets of the National Credit Union Administration Community Development
Revolving Loan Fund (CDRLF) as of December 31, 2010 and 2009, and the related statements of
operations, changes in fund balance, and cash flows (hereinafter referred to as “financial statements”) for
the years then ended, and have issued our report thereon dated February 10, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the CDRLF is responsible for complying with laws, regulations, contracts, and grant
agreements applicable to the CDRLF. As part of obtaining reasonable assurance about whether the
CDRLF’s financial statements are free of material misstatement, we performed tests of the CDRLF’s
compliance with certain provisions of laws, regulations, contracts, and grant agreements, noncompliance
with which could have a direct and material effect on the determination of the financial statement amounts,
and certain provisions of other laws and regulations specified in OMB Bulletin No. 07-04. We limited our
tests of compliance to the provisions described in the preceding sentence, and we did not test compliance
with all laws, regulations, contracts, and grant agreements applicable to the CDRLF. However, providing
an opinion on compliance with those provisions was not an objective of our audit, and accordingly, we do
not express such an opinion.

The results of our other tests of compliance discussed in the third paragraph of this report disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the addressees, CDRLF’s management, OMB,
the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should
not be used by anyone other than these specified parties.




February 10, 2011




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
National Credit Union Share
Insurance Fund
Financial Statements as of and for the Year Ended December 31, 2010
NATIONAL CREDIT UNION SHARE INSURANCE FUND

TABLE OF CONTENTS



                                                                       Page

INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS                      1

FINANCIAL STATEMENTS AS OF AND FOR THE YEAR ENDED DECEMBER 31, 2010:

Balance Sheet                                                             2

Statement of Net Cost                                                     3

Statement of Changes in Net Position                                      4

Statement of Budgetary Resources                                          5

Notes to the Financial Statements                                         6

INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL
OVER FINANCIAL REPORTING


INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND OTHER MATTERS
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




                        Independent Auditors’ Report on Financial Statements

Inspector General, National Credit Union Administration and
The Board of Directors, National Credit Union Administration:

We have audited the accompanying balance sheet of the National Credit Union Share Insurance Fund
(NCUSIF) as of December 31, 2010, and the related statements of net cost, and changes in net position,
and statement of budgetary resources (hereinafter referred to as “financial statements”) for the year then
ended. These financial statements are the responsibility of the NCUSIF’s management. Our responsibility
is to express an opinion on these financial statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement. An audit includes consideration of internal
control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the NCUSIF’s
internal control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audit provides a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the National Credit Union Share Insurance Fund as of December 31, 2010, and its net
costs, changes in net position, and budgetary resources for the year then ended in conformity with U.S.
generally accepted accounting principles.

The information in the Required Supplementary Information section is not a required part of the financial
statements, but is supplementary information required by U.S. generally accepted accounting principles.
We have applied certain limited procedures, which consisted principally of inquiries of management
regarding the methods of measurement and presentation of this information. However, we did not audit this
information and, accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated May 11, 2011,
on our consideration of the NCUSIF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, and contracts and other matters. The purpose of
those reports is to describe the scope of our testing of internal control over financial reporting and
compliance and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in accordance
with Government Auditing Standards and should be read in conjunction with this report in assessing the
results of our audit.


May 11, 2011


                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
NATIONAL CREDIT UNION SHARE INSURANCE FUND


BALANCE SHEET
As of December 31, 2010
(Dollars in thous ands )


                                                                                     2010
ASSETS


INTRAGOVERNMENTAL
   Fund Balance with Treas ury (Note 2)                                          $             1,551
   Inves tments , Net - U.S. Treas ury Securities (Note 3)                              10,848,272
   Accounts Receivable - Note due from the National
      Credit Union Adminis tration Operating Fund (Note 4)                                    17,097
   Accrued Interes t Receivable (Note 3)                                                      72,359
Total Intragovernmental As s ets                                                        10,939,279


PUBLIC
  Accounts Receivable - Capitalization Depos its from Ins ured Credit Unions ,                   183
      Net (Note 4)
   Accounts Receivable - Premium As s es s ments from Ins ured
      Credit Unions , Net (Note 4)                                                             2,036
   Other - Receivables from As s et Management Es tates , Net (Note 5)                       143,278
   General Property, Plant, and Equipment, Net                                                    38
Total Public As s ets                                                                        145,535

TOTAL ASSETS                                                                     $      11,084,814


LIABILITIES

INTRAGOVERNMENTAL
   Accounts Payable - Due to the Temporary Corporate Credit Union
      Stabilization Fund                                                         $               194
   Accounts Payable - Due to the National Credit Union Adminis tration
     Operating Fund (Note 7)                                                                   2,857
Total Intragovernmental Liabilities                                                            3,051


PUBLIC
   Accounts Payable                                                                              433
   Other - Ins urance and Guarantee Program Liabilities (Note 6)                            1,225,281
Total Public Liabilities                                                                    1,225,714
TOTAL LIABILITIES                                                                           1,228,765
Commitments and Contingencies (Note 6)


NET POSITION
   Contributed Capital (Note 10)                                                            7,485,159
   Cumulative Res ult of Operations                                                         2,370,890
Total Net Pos ition                                                                         9,856,049


TOTAL LIABILITIES AND NET POSITION                                               $      11,084,814

The accompanying notes are an integral part of thes e financial s tatements .




                                                             2
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENT OF NET COST
For the Year Ended December 31, 2010
(Dollars in thousands)

                                                                             2010

GROSS COSTS
Operating Expenses (Note 7)                                            $        117,004
Interest Expense on Borrowings (Note 7)                                          41,227
Fee on Early Retirement of Borrowings from the National Credit
   Union Administration Central Liquidity Facility (Note 7)                       7,599
Insurance Loss Expense (Note 6)                                                 735,562
   Total Gross Costs                                                            901,392


LESS EARNED REVENUES
Interest Revenue on Note Receivable from the National
  Credit Union Administration Operating Fund (Note 4)                              (397)
Interest Revenue on Loans (Note 7)                                              (41,227)
Fee on Early Retirement of Loans to Corporate Credit Unions (Note 7)             (7,599)
Insurance and Guarantee Premium Revenue (Note 7)                               (929,952)
   Total Earned Revenues                                                       (979,175)

TOTAL NET COST/(INCOME) OF OPERATIONS                                  $        (77,783)




The accompanying notes are an integral part of these financial statements.




                                                  3
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENT OF CHANGES IN NET POSITION
For the Year Ended December 31, 2010
(Dollars in thousands)




                                                                             2010

CUMULATIVE RESULTS OF OPERATIONS

Beginning Balance                                                     $         1,967,147


BUDGETARY FINANCING SOURCES
 Non-Exchange Revenue
   Interest Revenue - Investments (Note 3)                                          216,921
OTHER FINANCING SOURCES
 Non-Exchange Revenue
   Unrealized Gain/Loss - Investments (Note 3)                                      109,039
Total Financing Sources                                                             325,960
Net Income from/(Cost of) Operations                                                 77,783
Net Change                                                                          403,743
CUMULATIVE RESULTS OF OPERATIONS                                                2,370,890


CONTRIBUTED CAPITAL (Note 10)
Beginning Balance                                                               7,067,139
Change in Contributed Capital                                                       418,020
CONTRIBUTED CAPITAL                                                             7,485,159

NET POSITION                                                          $         9,856,049

The accompanying notes are an integral part of these financial statements.




                                                     4
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENT OF BUDGETARY RESOURCES
For the Year Ended December 31, 2010
(Dollars in thousands)

                                                                                 2010

BUDGETARY RESOURCES (Notes 8, 9 & 12)
Unobligated Balance, brought forward, January 1                              $     9,190,828
Budget Authority:
  Spending Authority from Offsetting Collections
    Collected                                                                     11,628,115
    Change in Receivables from Federal Sources                                         1,305
TOTAL BUDGETARY RESOURCES                                                    $    20,820,248


STATUS OF BUDGETARY RESOURCES
Obligations Incurred: Reimbursable                                           $    10,390,054
Unobligated Balance: Exempt from Apportionment                                    10,430,194
TOTAL STATUS OF BUDGETARY RESOURCES                                          $    20,820,248


CHANGE IN OBLIGATED BALANCES
Obligated Balance, net:
 Unpaid Obligations, brought forward, January 1                              $          62,321
 Uncollected Customer Payments from
  Federal Sources, brought forward, January 1                                        (71,054)
 Total, Unpaid Obligated Balance, brought forward, January 1                            (8,733)
Obligations Incurred, Net                                                         10,390,054
Gross Outlays                                                                    (10,448,096)
Change in Uncollected Customer Payments from Federal Sources                          (1,305)
TOTAL, UNPAID OBLIGATED BALANCE,
 NET, END OF PERIOD                                                          $       (68,080)

OBLIGATED BALANCE, NET, END OF PERIOD:
 Unpaid Obligations, end of period                                           $           4,279
 Uncollected Customer Payments from
  Federal Sources, end of period                                                     (72,359)
TOTAL, UNPAID OBLIGATED BALANCE,
 NET, END OF PERIOD                                                          $       (68,080)

NET OUTLAYS
Gross Outlays                                                                $    10,448,096
Offsetting Collections                                                           (11,628,115)
TOTAL NET OUTLAYS                                                            $    (1,180,019)


The accompanying notes are an integral part of these financial statements.




                                                   5
 NATIONAL CREDIT UNION SHARE INSURANCE FUND

 NOTES TO THE FINANCIAL STATEMENTS
 AS OF AND FOR THE YEAR ENDED DECEMBER 31, 2010


1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

  Reporting Entity
  The National Credit Union Share Insurance Fund (NCUSIF) was created by Title II of the Federal
  Credit Union Act (FCU Act), 12 U.S.C. 1781 et seq., as amended by §136(b) of the Emergency
  Economic Stabilization Act of 2008, 12 U.S.C. 5241(b), and the Helping Families Save Their Homes
  Act of 2009, §204, P.L. No. 111-22, 123 Stat. 1632, 1648 (2009) (Helping Families Act). The NCUSIF
  was established as a revolving fund in the Treasury of the United States (U.S. Treasury), under the
  National Credit Union Administration (NCUA) Board of Directors (NCUA Board) for the purpose of
  insuring member share deposits in all Federal Credit Unions (FCUs) and in qualifying state credit
  unions requesting insurance.

  The NCUA exercises direct supervisory authority over FCUs and coordinates required supervisory
  involvement with the state chartering authorities for state chartered credit unions insured by the
  NCUSIF. Insured credit unions are required to report certain financial and statistical information to
  NCUA on a quarterly basis, and are subject to periodic examination by the NCUA. Information
  derived through the supervision and examination process provides the NCUSIF with the ability to
  identify insured natural person credit unions experiencing financial difficulties that may require
  assistance from the NCUSIF.

  Assistance from the NCUSIF may be in the form of a waiver of statutory reserve requirements, a
  guarantee account, cash assistance, or other such form. In some cases, a merger partner for the credit
  union may be sought. Mergers between financially troubled credit unions and stronger credit unions
  may also require NCUSIF assistance. Merger assistance may be in the form of cash assistance,
  purchase of certain assets by the NCUSIF, and/or guarantees of the values of certain assets (primarily
  loans). When a credit union is no longer able to continue operating and the merger and assistance
  alternatives are not practical, the NCUSIF will liquidate the credit union, pay members’ shares up to the
  maximum insured amount, and dispose of its assets.

  Fiduciary Responsibilities
  Fiduciary activities are the collection or receipt, management, protection, accounting, investment, or
  disposition by the Federal Government of cash or other assets, in which non-federal individuals or
  entities have an ownership interest that the Federal Government must uphold. NCUA’s Asset
  Management and Assistance Center (AMAC) conducts liquidations and performs management and
  recovery of assets for failed credit unions. Assets and liabilities of liquidated credit unions reside in
  Asset Management Estates (AMEs), as authorized by the NCUA Board. These assets and liabilities are
  held for the exclusive benefit of non-federal parties and therefore are considered fiduciary in
  accordance with Statement of Federal Financial Accounting Standards (SFFAS) No. 31, “Accounting
  for Fiduciary Activities.” The beneficiaries of the fiduciary activities are shareholders and other
  claimants of the liquidated credit unions. Fiduciary assets are not assets of the Federal Government and
  therefore are not recognized on the Balance Sheet.




                                                     6
Sources of Funding
Deposits insured by NCUSIF are backed by the full faith and credit of the Federal Government.
NCUSIF has multiple sources of funding. Each insured credit union is required to deposit and maintain
in the NCUSIF one percent of its insured shares. The NCUA Board may also assess premiums to all
federally insured credit unions, as provided by the FCU Act.

In addition, the NCUSIF has $6.0 billion in available borrowing authority, shared with the Temporary
Corporate Credit Union Stabilization Fund (TCCUSF), from the U.S. Treasury.

Under the FCU Act, the NCUSIF also has the ability to borrow from the NCUA Central Liquidity
Facility (CLF). CLF had $35.0 billion of full borrowing capacity under its note purchase agreement
with the Federal Financing Bank (FFB), as of December 31, 2010.

Recent Legislation
The Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010 (Dodd-Frank Act), §335
P.L. 111-203, 124 Stat. 1544, amended the FCU Act to make permanent the standard maximum share
insurance amount of $250,000. Section 343 of the Dodd-Frank Act also amended the FCU Act to
include full share insurance coverage, beyond the standard maximum share insurance amount
($250,000), for the net amount that any member or depositor at an insured credit union maintains in a
noninterest-bearing transaction account, effective through December 31, 2012. A noninterest-bearing
transaction account is an account maintained at an insured credit union wherein interest is neither
accrued nor paid, the account holder or depositor is permitted to make withdrawals for the purpose of
making payments or transfers to others, and on which the insured credit union does not reserve the right
to require advance notice of an intended withdrawal.

Basis of Presentation
The NCUSIF’s financial statements have been prepared from its accounting records in accordance with
the Federal Accounting Standards Advisory Board (FASAB) SFFAS. FASAB is recognized by the
American Institute of Certified Public Accountants as the official accounting standards-setting body of
the Federal Government. The format of the financial statements and notes is in accordance with the
form and content guidance provided in Office of Management and Budget (OMB) Circular A-136,
Financial Reporting Requirements, revised September 29, 2010.

The NCUSIF historically prepared its financial statements in accordance with generally accepted
accounting principles in the United States of America (GAAP), based on standards issued by the
Financial Accounting Standards Board (FASB), the private-sector standards-setting body. On
September 16, 2010, the NCUA Board authorized the NCUSIF to adopt the FASAB standards for
financial reporting, effective from January 1, 2010. Accordingly, this is the first year of presentation of
the NCUSIF financial statements in accordance with FASAB.

Basis of Accounting
In its accounting structure, the NCUSIF records both proprietary and budgetary accounting
transactions. Following the accrual method of accounting, revenues are recognized when earned and
expenses are recognized when incurred, without regard to the actual collection or payment of cash.

Federal budgetary accounting recognizes the obligation, borrowing authorities, and other fund resources
upon the establishment of a properly documented legal liability, which may be different from the
recording of an accrual-based transaction. The recognition of budgetary accounting transactions is
essential for compliance with legal controls over the use of federal funds and compliance with
budgetary laws.

                                                    7
NCUA, including the NCUSIF, is exempt from requirements under the Federal Credit Reform Act of
1990 (2 U.S.C. §661e (a) (1)).

Use of Estimates
The preparation of financial statements in conformity with GAAP for the Federal Government requires
management to make estimates and assumptions that affect the following:

  •   Reported amounts of assets and liabilities
  •   Disclosure of contingent assets and liabilities at the date of the financial statements
  •   The amounts of revenues and expenses reported during that period.

Actual results could differ from estimates. Significant items subject to those estimates and assumptions
include reserves for losses and contingencies related to Insurance and Guarantee Program Liabilities.
The current economic environment has increased the degree of uncertainty inherent in those estimates
and assumptions.

Net Position and Contributed Capital
Each insured credit union pays and maintains with the fund a capitalization deposit in the amount equal
to one percent of its insured shares. The NCUSIF reports the capitalization deposits from member
credit unions as contributed capital. This amount is included in the NCUSIF Statement of Changes in
Net Position.

Fund Balance with Treasury
Fund Balance with Treasury (FBWT) is the aggregate amount of the NCUSIF’s accounts with the
Federal Government’s central accounts, from which the NCUSIF is authorized to make expenditures
and pay liabilities. The entire FBWT is a revolving fund type. Cash balances in FBWT are invested in
U.S. Treasury securities, as managed by the Bureau of the Public Debt.

Investments
Investment securities as of December 31, 2010, primarily consist of marketable U.S. Treasury securities
of varying maturities (debt securities). The NCUSIF also holds non-marketable U.S. Treasury
overnight securities purchased and reported at par value, which are classified as held to maturity. All
marketable securities are carried as available-for-sale, in accordance with FASB Accounting Standards
Codification (ASC) 320, “Investments – Debt and Equity Securities.” Consistent with SFFAS No. 34,
“The Hierarchy of Generally Accepted Accounting Principles, Including the Application of Standards
Issued by the Financial Accounting Standards Board,” NCUA applies FASB guidance because FASAB
has not issued specific guidance for securities that are classified as available-for-sale.

Interest earned and unrealized holding gains and losses on U.S. Treasury securities are excluded from
net income and reported as components of non-exchange revenue. Realized gains and losses from the
sale of available-for-sale securities are determined on a specific identification basis.

NCUSIF reviews all U.S. Treasury securities that are in an unrealized loss position for Other-Than-
Temporary Impairment (OTTI). NCUSIF evaluates its U.S. Treasury securities on a monthly basis. An
investment security is deemed impaired if the fair value of the investment is less than its amortized cost.
Amortized cost includes adjustments (if any) made to the cost basis of an investment for accretion,
amortization, and previous OTTI. To determine whether impairment is OTTI, the NCUSIF takes into
consideration whether it has the intent to sell the security. The NCUSIF also considers available
evidence to assess whether it more likely than not will be required to sell the debt security before the
recovery of its amortized cost basis. If the NCUSIF intends to sell, or more likely than not will be

                                                    8
required to sell, the security before recovery of its amortized cost basis, OTTI shall be considered to
have occurred.

Premiums and discounts are amortized or accreted over the life of the related available-for-sale security
as an adjustment to yield using the effective interest method. The amortization and accretion of a
premium and discount, respectively, are recorded in the following manner:

1. For premiums, the amortization of that premium is recorded to a valuation adjustment account
   (contra-asset), which is netted against the security’s carrying amount to bring the recorded amount
   of the investment back down to par.
2. For discounts, the accretion of that discount is recorded directly to the security’s carrying amount to
   bring the recorded amount of the investment back up to par.

Revenue Recognition
Exchange Revenue
Exchange revenues arise and are recognized when a Federal Government entity provides goods and
services to the public or to another Federal Government entity for a price. Exchange revenue primarily
consists of premium assessments, the purpose of which is to recover the losses of the credit union
system.

Non-Exchange Revenue
Non-exchange revenues are inflows of resources that the Federal Government demands or receives by
donation. Such revenues are recognized when a specifically identifiable, legally enforceable claim to
resources arises, to the extent that collection is probable (more likely than not) and the amount is
reasonably estimable.

Each insured credit union pays to and maintains with the NCUSIF a capitalization deposit amount equal
to one percent of its insured shares. This amount is recognized as non-exchange revenue upon receipt.
In accordance with SFFAS No. 7, “Accounting for Revenue and Other Financing Sources and Concepts
for Reconciling Budgetary and Financial Accounting,” interest revenue on investments in U.S. Treasury
securities is recognized as non-exchange revenue because the main source of funds for investments
comes from capital deposits. Additionally, unrealized holding gains and losses on investments in U.S.
Treasury securities are excluded from earnings and reported as a component of non-exchange revenue.

Accounts Receivable
The NCUSIF’s accounts receivable has two components: Intragovernmental and Public.
Intragovernmental accounts receivable represent receivables between the NCUSIF and another
reporting entity within the Federal Government. Public accounts receivable represent accounts
receivable between the NCUSIF and a non-federal entity.

Capitalization Deposits from Insured Credit Unions
Each insured credit union pays to and maintains with the NCUSIF a capitalization deposit amount equal
to one percent of its insured shares. A receivable and associated non-exchange revenue is recognized
upon invoicing.

Premium Assessments from Insured Credit Unions
The NCUA Board has the statutory authority according to the FCU Act Section 1782, Administration of
the Insurance Fund, to assess the federally insured credit unions for a premium charge. The NCUA
Board may assess each insured credit union a premium charge for insurance in an amount stated as a
percentage of insured shares outstanding as of the most recently ended reporting period if the
NCUSIF’s equity ratio, as defined, is less than 1.3%. When the NCUA Board projects that the equity
ratio will, within six months, fall below 1.2%, the NCUA Board shall establish and implement a

                                                   9
restoration plan within 90 days, which meets the requirements and conditions that the NCUA Board
determines appropriate. In order to meet the requirements established by the NCUA Board, the plan
must provide that the equity ratio will meet or exceed the minimum amount specified before the end of
the 8-year period beginning upon the implementation of the plan (or such longer period as the Board
may determine to be necessary due to extraordinary circumstances).

Premium receivable refers to premium charge amounts that have been billed to federally insured credit
unions, but have not been received as of the Balance Sheet date. As the premium assessments are
collected, the portion billed on behalf of the TCCUSF is recorded as a payable to the TCCUSF.

Allowance for Doubtful Accounts
An allowance for doubtful accounts is the NCUSIF’s best estimate of the amount of credit losses in an
existing receivable. Based on an assessment of collectability, the NCUSIF calculates an allowance on
an individual account basis for public accounts receivable. An account may be impaired or written off
if it is probable that the NCUSIF will not collect all principal and interest contractually due. No
allowance is calculated for intragovernmental accounts receivable, as these are deemed to be fully
collectible.

Accrued Interest Receivable
The NCUSIF recognizes accrued interest receivable for amounts of interest on investments that have
been contractually earned but not yet received.

Other - Receivables from Asset Management Estates
Receivables from AMEs include claims to recover payments made by the NCUSIF to cover obligations
to insured shareholders, and administrative expenses paid on behalf of AMEs. Any related allowance
for loss represents the difference between the funds disbursed and obligations incurred and the expected
repayment from the AMEs. Assets held by the AMEs are the main source of repayment of the
NCUSIF’s receivables from the AMEs.

The allowance for losses on receivables from AMEs are based on asset recovery rates, and come from
several sources including:

 •    Actual or pending AME asset disposition data
 •    Asset valuation data based upon the performance, quality, and type of the assets in the portfolio
 •    Estimated liquidation costs based on information from similar recently failed credit unions
 •    Estimated AME specific administrative expenses based upon complexity and expected duration
      of the AME.

Asset recovery rates are evaluated during the year, but remain subject to uncertainties because of
potential changes in economic and market conditions.

Insurance and Guarantee Liabilities
In accordance with SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” all federal
insurance and guarantee programs, except social insurance and loan guarantee programs, should
recognize a liability for:

 •    Unpaid claims incurred, resulting from insured events that have occurred as of the reporting date
 •    A contingent liability when an existing condition, situation, or set of circumstances involving
      uncertainty as to possible loss exists, and the uncertainty will ultimately be resolved when one or
      more probable future events occur or fail to occur
 •    A future outflow or other sacrifice of resources that is probable.

                                                  10
  The NCUSIF records a contingent liability for potential losses relating to member credit unions.
  Through NCUA’s supervision process, NCUA applies a supervisory rating system to assess each credit
  union’s relative health in the adequacy of Capital, the quality of Assets, the capability of Management,
  the quality and level of Earnings, and the adequacy of Liquidity (CAMEL), applying a value ranging
  from “1” (strongest) to “5” (weakest). The contingent liability is derived by applying expected failures
  based on CAMEL ratings and historical loss rates for all credit unions rated “2” through “5.” In
  addition, credit union specific analysis is performed on those credit unions where failure is imminent or
  where additional information is available that may affect the estimate of losses.

  Liabilities for loss contingencies also arise from claims, assessments, litigations, fines, penalties, and
  other sources. These loss contingencies are recorded when it is probable that a liability has been
  incurred and the amount of the assessment and/or remediation can be reasonably estimated. Legal costs
  incurred in connection with loss contingencies are expensed as incurred.

2. FUND BALANCE WITH TREASURY

  FBWT balances and status at December 31, 2010, consisted of the following (in thousands):

                    Total Fund Balance with Treasury: Revolving
                    Funds                                           $               1,551


                    Status of Fund Balance with Treasury:


                    Unobligated Balance - Available                 $          10,430,194
                    Obligated Balances Not Yet Disbursed                            4,279
                    Non-Budgetary FBWT Accounts                               (10,432,922)
                    Total                                           $               1,551




  As a revolving fund, the FBWT is used for continuing business-like activities. The NCUSIF collects
  premiums and capitalization deposits which in turn are invested in U.S. Treasury securities. The
  proceeds are primarily held to cover insurance losses, to include merger assistance, liquidations, and
  other administrative expenses, without requirement for annual appropriations. FBWT contains monies
  available for future obligations as well as monies obligated for current activities. Non-budgetary
  FBWT accounts, which consist of investments, reduce the status of fund balance.

  During 2010, the FBWT account was increased by maturing investments in U.S. Treasury securities
  and premium assessments. The FBWT account was decreased by purchases of U.S. Treasury securities
  and amounts expended for the purposes of the share insurance program. As of December 31, 2010,
  there were no unreconciled differences between U.S. Treasury records and balances reported on the
  NCUSIF’s general ledger.

3. INVESTMENTS

  The FCU Act, Section 1783 (c), as amended, provides guidance regarding U.S. Treasury security
  investments. All investments at the NCUSIF pertain to marketable (available-for-sale) U.S. Treasury
  securities of varying maturities and non-marketable (held to maturity) U.S. Treasury daily overnight
  securities. Premiums or discounts on available-for-sale securities are amortized using the effective
  interest method.


                                                      11
  As of December 31, 2010, the carrying amount, gross unrealized holding gains, gross unrealized
  holding losses, and fair value of U.S. Treasury securities were as follows:
                                                          Amortized
                                                          (Premium)          Interest        Investments,     Net Unrealized      Carrying/Fair
                                          Cost            Discount          Receivable         Net (Par)       Gain (Loss)            Value
   (Dollars in thousands)
     Available-for-Sale               $   10,127,327 $        (135,992) $          72,359 $       9,720,000 $            186,387 $    10,177,722
     Held to Maturity                       670,550          n/a                         -         670,550         n/a                  670,550
     Total                            $   10,797,877 $        (135,992) $          72,359 $ 10,390,550 $                 186,387 $    10,848,272




Maturities of U.S. Treasury securities as of December 31, 2010, were as follows:


         (Dollars in thousands)                                                                      Fair value
         Held to Maturity (Overnights)                                                        $              670,550
         Available-for-sale:
                       Due prior to one year                                                                  1,627,609
                       Due after one year through five years                                                  7,190,675
                       Due after five years through ten years                                                 1,359,438
                                                                                              $              10,848,272

  There were no realized gains or losses in 2010.

  The following table presents gross unrealized losses on investment securities, for which OTTI have not
  been recognized, in addition to the fair values of those securities, aggregated by investment
  classification and length of time the investments have been in a loss position, at December 31, 2010.

                                                                         Duration of Losses - Less than 12 months
                                                            Unrealized                Unrealized
             (Dollars in thousands)                          losses                     gains                   Fair value
             Available-for-sale:
             U.S. Treasury securities                 $               (50,119) $                  236,506 $                    10,177,722



  The unrealized losses on investments in U.S. Treasury securities, included in the table above, were the
  result of lower interest rates at issuance compared to current higher interest rates. The contractual terms
  of those investments do not permit the issuer to settle the securities at a price less than the amortized
  cost of the investment. These securities are not considered OTTI because the NCUSIF does not intend
  to sell, and more likely than not, will not be required to sell before recovery of the cost basis.




                                                                       12
4. ACCOUNTS RECEIVABLE

  Intragovernmental – Accounts Receivable
  Note Due From the NCUA Operating Fund
  In 1992, the NCUSIF lent approximately $42.0 million to the NCUA Operating Fund, pursuant to a
  30-year note secured by the NCUA premises in Alexandria, Virginia. Interest income recognized was
  approximately $397 thousand for 2010. The note receivable balance as of December 31, 2010, was
  approximately $17.1 million.

  The variable rate on the note is equal to NCUSIF’s prior-month yield on investments. The average
  interest rate during 2010 was 2.24%. The interest rate as of December 31, 2010, was 2.14%.

  As of December 31, 2010, the above note requires principal repayments as follows (in thousands):
                               Years Ending                      Secured
                               December 31                      Term Note

                               2011                            $       1,341
                               2012                                    1,341
                               2013                                    1,341
                               2014                                    1,341
                               2015                                    1,341
                               Thereafter                             10,392

                               Total                           $      17,097

  Public – Accounts Receivable
  Capitalization Deposits from Insured Credit Unions
  As of December 31, 2010, the capitalization deposits due from insured credit unions were $183
  thousand.

  Premium Assessments from Insured Credit Unions
  During 2010, premium assessments were invoiced to all federally insured credit unions. These
  assessments are allowed under the NCUA Board’s statutory authority. As of December 31, 2010,
  assessments that have not been received from credit unions were $2.0 million.

  The allowance for doubtful accounts on the above public accounts receivable as of December 31, 2010,
  was zero.




                                                  13
5. OTHER – RECEIVABLES FROM ASSET MANAGEMENT ESTATES

  As of December 31, 2010, the receivable from the AMEs was $920.9 million and the related allowance
  for loss was $777.6 million, for a net receivable from AMEs of $143.3 million. The activity in the
  allowance for losses for the year ended was as follows:

                                                                         For the Year Ended
                                                                         December 31, 2010
                  (Dollars in thousands)

                  Beginning balance                                  $               516,414
                  Increase in Allowance                                              221,099
                  Charges, Net                                                        40,056
                  Ending balance                                     $               777,569

6. OTHER LIABILITIES – INSURANCE AND GUARANTEE PROGRAM LIABILITIES

  NCUA identifies credit unions experiencing financial difficulty through NCUA’s supervisory and
  examination process. On both a general and specific case basis, management determines the estimated
  losses from these supervised credit unions. NCUA also evaluates overall economic trends and monitors
  potential system-wide risk factors, such as increasing levels of consumer debt, bankruptcies, and
  delinquencies. NCUA applies the CAMEL rating system to assess a credit union’s financial condition
  and operations. The CAMEL rating system is a tool to measure risk and allocate resources for
  supervisory purposes. NCUA periodically reviews the CAMEL rating system to respond to continuing
  economic and regulatory changes in the credit union industry. For general reserve requirements, risk
  profile categories are established based on the CAMEL ratings of problem credit unions, and probable
  failure and loss rates are applied based on historical data. The anticipated losses are net of estimated
  recoveries from the disposition of the assets of failed credit unions. The total reserves for identified and
  anticipated losses resulting from supervised credit unions’ failures were $1.23 billion as of December
  31, 2010.

  In exercising its supervisory function, the NCUSIF will occasionally extend guarantees of assets
  (primarily loans) to third-party purchasers or existing credit unions in order to facilitate mergers. The
  NCUSIF would be obligated upon nonperformance. No such guarantees were outstanding during 2010
  or as of December 31, 2010.

  In addition, the NCUSIF may grant a guaranteed line-of-credit to a third-party credit provider, such as a
  Corporate Credit Union or bank, if a particular credit union were to have a current or immediate
  liquidity concern and the credit provider refused to extend credit without a guarantee. The NCUSIF
  would thereby be obligated if the credit union failed to perform. Total line-of-credit guarantees of
  credit unions as of December 31, 2010, were approximately $75.5 million. There were no balances
  outstanding under these line-of-credit guarantees as of December 31, 2010. The carrying amount of the
  liability as of December 31, 2010, for the outstanding NCUSIF guarantees was $1.4 million. The
  guarantees expire in 2011.

  On rare occasions, the NCUSIF may provide indemnifications as part of a merger assistance agreement
  to acquiring credit unions. Such indemnifications make the NCUSIF contingently liable based on the
  outcome of any legal actions. There were no such indemnification contingencies as of December 31,
  2010.

  The activity in the Insurance and Guarantee Program Liabilities from supervised credit unions and
  AMEs for the year ended December 31, 2010, was as follows:


                                                     14
                                                                      For the Year Ended
                                                                      December 31, 2010
                 (Dollars in thousands)

                 Beginning balance                                    $              715,846
                 Insurance Loss Expense                                              735,562
                 Insurance losses (claims) paid                                     (277,801)
                 Net Recovery/Claim on AME                                            51,674

                 Ending balance                                       $            1,225,281


  The Insurance and Guarantee Program Liabilities at December 31, 2010, were comprised of the
  following:
   •    Specific reserves were $173.5 million. Specific reserves are identified for those credit unions
        where failure is imminent or where additional information is available that may affect the
        estimate of losses.
   •    General reserves were $1,051.8 million.

  In addition to these recorded contingent liabilities, additional adverse performance in the financial
  services industry could result in additional losses to the NCUSIF. The ultimate losses for insured credit
  unions will largely depend upon future economic and market conditions, and accordingly, could differ
  significantly from these estimates.

7. INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE

  Program costs and revenues are separated between intragovernmental and public to facilitate
  government-wide financial reporting. Intragovernmental revenue and expenses arise from transactions
  with other federal entities. Public revenue and expenses arise from transactions with domestic and
  foreign persons and organizations outside of the Federal Government.


                  Intragovernmental Costs and Exchange        For the Year Ended
                  Revenue                                     December 31, 2010
                  (Dollars in thousands)

                  Intragovernmental Costs                $                162,410
                  Public Costs                                            738,982
                      Total                                               901,392

                  Intragovernmental Exchange
                    Revenue                                                   (397)
                  Public Exchange Revenue                                 (978,778)
                      Total                                               (979,175)
                  Net Cost/(Income)                       $                (77,783)




                                                    15
  Certain administrative services are provided to the NCUSIF by the NCUA Operating Fund. The
  NCUSIF is charged by the NCUA Operating Fund for these services based upon an annual allocation
  factor approved by the NCUA Board and derived from a study of actual usage. The allocation factor
  was 57.2% to NCUSIF for 2010. The cost of the services allocated to NCUSIF, which totaled
  approximately $113.6 million for 2010, is reflected as an expense in the Statement of Net Cost. These
  transactions are settled monthly. As of December 31, 2010, amounts due to the NCUA Operating
  Fund, for allocated administrative expenses were $2.9 million. The following table provides a
  breakdown of the administrative services provided to the NCUSIF by the NCUA Operating Fund.


              Administrative Services Reimbursed to
              the National Credit Union                    For the Year Ended
              Administration Operating Fund                December 31, 2010
              (Dollars in thousands)

              Employee Salaries                           $               64,218
              Employee Benefits                                           17,931
              Employee Travel                                             12,912
              Contracted Services                                          8,294
              Administrative Costs                                         7,855
              Rent, Communications, and Utilities                          2,374
              Total Services Provided by NCUA
               Operating Fund                             $             113,584



8. AVAILABLE BORROWING AUTHORITY, END OF PERIOD

  The NCUSIF shares $6.0 billion in borrowing authority from the U.S. Treasury with the TCCUSF. In
  addition, per the FCU Act, the NCUSIF is authorized to borrow from the CLF up to the amount of
  CLF’s unused borrowing authority. CLF had $35.0 billion of full borrowing capacity under its note
  purchase agreement with the FFB, at year-end. At December 31, 2010, the NCUSIF had $41.0 billion
  in available borrowing authority.

9. DISCLOSURES RELATED TO THE STATEMENT OF BUDGETARY RESOURCES

  The Statement of Budgetary Resources discloses total budgetary resources available to the NCUSIF,
  and the status of resources as of December 31, 2010. Activity impacting budget totals of the overall
  Federal Government budget is recorded in NCUSIF’s Statement of Budgetary Resources budgetary
  accounts. As of December 31, 2010, NCUSIF’s resources in budgetary accounts were $20.8 billion and
  undelivered orders were $795 thousand. All liabilities are covered by budgetary resources, excluding
  the Insurance and Guarantee Program Liabilities, because they are contingent liabilities and do not
  require budgetary resources. All obligations incurred by NCUSIF are reimbursable. NCUSIF is
  exempt from OMB apportionment control.

  Budgetary resources listed on NCUSIF’s statements and the budgetary resources found in the budget of
  the Federal Government differ because NCUSIF’s statements are prepared as of December 31, rather
  than as of September 30, the Federal Government’s fiscal year end.




                                                    16
10. CONTRIBUTED CAPITAL

   The Credit Union Membership Access Act of 1998 (CUMAA) mandated changes to the NCUSIF’s
   capitalization provisions effective January 1, 2000. Each insured credit union shall pay to and maintain
   with the NCUSIF a deposit in an amount equaling one percent of the credit union’s insured shares. The
   amount of each insured credit union’s deposit is adjusted as follows, in accordance with procedures
   determined by the NCUA, to reflect changes in the credit union’s insured shares: (i) annually, in the
   case of an insured credit union with total assets of not more than $50.0 million; and (ii) semiannually,
   in the case of an insured credit union with total assets of $50.0 million or more. The annual and
   semiannual adjustments are based on member share deposits outstanding as of December 31 of the
   preceding year and June 30 of the current year, respectively. The one percent contribution is returned
   to the insured credit union in the event that its insurance coverage is terminated, or is obtained from
   another source, or the operations of the NCUSIF are transferred from the NCUA.

   Beginning in 2000, the CUMAA mandated that dividends to insured credit unions are determined from
   specific ratios, which are based upon year-end reports of insured shares. Accordingly, dividends
   associated with insured shares at year-end are declared and paid in the subsequent year.

   In December 2007, the NCUA Board set the normal operating level at 1.30%. The calculated equity
   ratio as of December 31, 2010, was 1.28%, based on total insured shares as of December 31, 2010, of
   $757.9 billion. Total contributed capital as of December 31, 2010, was $7.5 billion.

   The NCUSIF equity ratio is calculated as the ratio of contributed capital plus cumulative results of
   operations excluding net cumulative unrealized gains and losses on investments, to the aggregate
   amount of the insured shares in all insured credit unions.




                                                     17
11. FIDUCIARY ACTIVITIES

   Fiduciary activities are the collection or receipt, management, protection, accounting, investment, and
   disposition by an AME of cash and other assets, in which non-federal individuals or entities have an
   ownership interest. Fiduciary assets are not assets of the Federal Government. Fiduciary activities are
   not recognized on the financial statements, but are reported on schedules in the notes to the financial
   statements in accordance with SFFAS No. 31, “Accounting for Fiduciary Activities.”

   The NCUA Board, as liquidating agent of the AMEs, disburses obligations owed by and collects money
   due to the liquidating credit unions through AMAC.
                                                                             For the Year Ended
         Schedule of Fiduciary Activity                                      December 31, 2010
         (Dollars in thousands)

         Fiduciary Net Liabilities, beginning of year                        $             (516,414)
         Interest on Loans                                                                    8,545
         Other Fiduciary Revenues                                                             1,835
         Professional & Outside Services Expenses                                            (7,906)
         Compensation and Benefits                                                           (2,989)
         Other Expenses                                                                      (3,099)
         Net Gain/(Loss) on Loans                                                          (281,294)
         Net Gain/(Loss) on Real Estate Owned                                                 3,574
         Other, Net Gain/(Loss)                                                              16,484
         Decrease / (Increase) in Fiduciary Net Liabilities                                (264,850)
         Fiduciary Net Liabilities, end of year                              $            (781,264)


   Revenues consist of cash collected during the liquidation of assets held within the AME. Gains and
   losses include the revaluation of assets, as well as the disposition of assets and adjustments to liabilities,
   which contribute to the change in fiduciary net assets/liabilities.


          Schedule of Fiduciary Net Assets/Liabilities                       As of December 31, 2010
          (Dollars in thousands)

          Fiduciary Assets
           Loans                                                         $                   120,271
           Real Estate Owned                                                                  36,798
           Other Fiduciary Assets                                                              7,720
          Total Fiduciary Assets                                                             164,789
          Fiduciary Liabilities
           Insured Shares                                                                      2,510
           Accrued Liquidation Expenses                                                        5,957
           Unsecured Claims                                                                   12,851
           Uninsured Shares                                                                    3,887
           Due to NCUSIF                                                                     920,848
          Total Fiduciary Liabilities                                                        946,053
          Total Fiduciary Net Assets/(Liabilities)                       $                  (781,264)



                                                         18
12. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET

  The Reconciliation of Net Cost of Operations to Budget explains the difference between the budgetary net
  obligations and the proprietary net cost of operations. As of December 31, 2010, the Reconciliation of
  Net Cost of Operations to Budget consisted of the following:

  Reconciliation of Net Cost of Operations to Budget                        As of December 31, 2010
  (Dollars in thousands)

  Resources Used to Finance Activities:
  Budgetary Resources Obligated
  Budgetary Obligations Incurred                                            $               10,390,054
  Less: Spending Authority from Offsetting Collections and Change in
   Receivables from Federal Sources                                                        (11,629,420)
  Net Obligations                                                                           (1,239,366)

  Other Resources:
   Change in Premiums Receivable from Insured Credit Unions                                    10,865
   Change in Receivables from Asset Management Estates                                         61,161
  Total Resources Used to Finance Activities                                                (1,167,340)


  Resources Used to Fund Items Not Part of the Net Cost of Operations:
  Change in Budgetary Resources Obligated for Goods and Services
   Not Yet Received                                                                            (32,531)
  Change in Uncollected Customer Payments                                                       (1,305)
  Change in Capital Deposit Receivable from Insured Credit Unions                               17,628
  Change in Contributed Capital                                                               418,020
  Capital Deposits in Transit at Beginning of Year                                             (17,570)
  Resources that Finance the Acquisition of Assets                                              (5,358)
  Change in Accounts Receivable from Operating Fund                                               1,341
  Change in Liability for Advances and Prepayments                                               (2,257)
  Resources That Fund Expenses Recognized in Prior Periods                                     (23,993)
  Total Resources Used to Fund Items Not Part of the Net Cost
    of Operations                                                                             353,975


  Resources Used to Finance the Net Cost of Operations                                        (813,365)


  Components of Net Cost of Operations that do not Require or
    Generate Resources During the Reporting Period:
  Depreciation Expense                                                                             20
  Insurance Loss Expense                                                                      735,562
  Total Components of Net Cost of Operations That Do Not
    Require or Generate Resources During the Reporting Period                                 735,582
  Net Cost of (Income from) Operations                                      $                  (77,783)



                                                    19
13. SUBSEQUENT EVENTS

   Subsequent events have been evaluated from the balance sheet date through May 11, 2011, which is the
   date the financial statements were available to be issued. Management determined that there were no
   other items to disclose as of December 31, 2010.

REQUIRED SUPPLEMENTARY INFORMATION (Unaudited)

   Risk Assumed Information

   As discussed previously herein, NCUA identifies credit unions at risk of failure through the supervisory
   and examination process, and estimates losses based upon economic trends and credit unions’ financial
   condition and operations. The amount of reserves recognized for credit unions at risk of failure was
   $1.23 billion at December 31, 2010, due to the slow pace of economic recovery and concerns with real
   estate values, a negative trend in credit union CAMEL codes, the potential for a larger number of
   failures, and concern with the cost of failures. To maintain the fund’s financial health, the NCUSIF
   assessed a premium of $930.0 million in 2010, to restore the NCUSIF’s equity ratio to 1.3% of insured
   shares as of June 30, 2010.




                                                    20
                                 KPMG LLP
                                 2001 M Street, NW
                                 Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, National Credit Union Administration and
The Board of Directors, National Credit Union Administration:

We have audited the balance sheet of the National Credit Union Share Insurance Fund (NCUSIF) as of
December 31, 2010 and the related statements of net cost, and changes in net position, and statement of
budgetary resources (hereinafter referred to as “the financial statements”) for the year then ended, and have
issued our report thereon dated May 11, 2011.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the NCUSIF is responsible for establishing and maintaining effective internal control.
In planning and performing our fiscal year 2010 audit, we considered the NCUSIF’s internal control over
financial reporting by obtaining an understanding of the NCUSIF’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of the NCUSIF’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of the
NCUSIF’s internal control over financial reporting. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2010 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.

Exhibit I presents the status of the prior year significant deficiency.




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
National Credit Union Share Insurance Fund
May 11, 2011
Page 2 of 2

This report is intended solely for the information and use of the addressees, NCUSIF’s management, OMB,
the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should
not be used by anyone other than these specified parties.




May 11 , 2011
                                                                     Exhibit I

             NATIONAL CREDIT UNION SHARE INSURANCE FUND
                       STATUS OF PRIOR YEAR FINDINGS




               2009 Finding                  Deficiency Type     2010 Status
Improvements Needed in Financial
                                        Significant Deficiency     Closed
Accounting and Reporting Process
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General, National Credit Union Administration and
The Board of Directors, National Credit Union Administration:

We have audited the balance sheet of the National Credit Union Share Insurance Fund (NCUSIF) as of
December 31, 2010, and the related statements of net cost, and changes in net position, and statement of
budgetary resources (hereinafter referred to as “financial statements”) for the year then ended, and have
issued our report thereon dated May 11, 2011.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the NCUSIF is responsible for complying with laws, regulations, and contracts
applicable to the NCUSIF. As part of obtaining reasonable assurance about whether the NCUSIF’s
financial statements are free of material misstatement, we performed tests of the NCUSIF’s compliance
with certain provisions of laws, regulations, and contracts, noncompliance with which could have a direct
and material effect on the determination of the financial statement amounts, and certain provisions of other
laws and regulations specified in OMB Bulletin No. 07-04. We limited our tests of compliance to the
provisions described in the preceding sentence, and we did not test compliance with all laws, regulations,
and contracts applicable to the NCUSIF. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our other tests of compliance discussed in the third paragraph of this report disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the addressees, NCUSIF’s management, OMB,
the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should
not be used by anyone other than these specified parties.




May 11, 2011




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
